<html>
<title> - THE BETRAYAL OF OUR SYRIAN KURDISH PARTNERS: HOW WILL AMERICAN FOREIGN POLICY AND LEADERSHIP RECOVER?</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


THE BETRAYAL OF OUR SYRIAN KURDISH PARTNERS: HOW WILL AMERICAN FOREIGN 
                     POLICY AND LEADERSHIP RECOVER?

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 23, 2019

                               __________

                           Serial No. 116-72

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-070 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas 

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Jeffrey, The Honorable James F., Special Representative for Syria 
  Engagement and Special Envoy to the Global Coalition to Defeat 
  ISIS, U.S. Department of State.................................     8
Palmer, Matthew, Deputy Assistant Secretary, Bureau of European 
  and Eurasian Affairs, U.S. Department of State (no statement 
  provided)......................................................    15

                              MAP OF SYRIA

Map of Syria used for clarification..............................    18

                       INFORMATION FOR THE RECORD

Information for the record submitted from Representative Lieu....    45

                                APPENDIX

Hearing Notice...................................................    80
Hearing Minutes..................................................    81
Hearing Attendance...............................................    82

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from Chairman 
  Engel..........................................................    83
Responses to questions submitted for the record from 
  Representative Chabot..........................................    84
Responses to questions submitted for the record from 
  Representative Titus...........................................    85
Responses to questions submitted for the record from 
  Representative Guest...........................................    86

 
THE BETRAYAL OF OUR SYRIAN KURDISH PARTNERS: HOW WILL AMERICAN FOREIGN 
                     POLICY AND LEADERSHIP RECOVER?

                      Wednesday, October 23, 2019

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 10:13 a.m., in 
room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel. The committee will come to order.
    Without objection, all members will have 5 days to submit 
statements, extraneous material, and questions for the record 
subject to the length limitation in the rules.
    We meet today to examine President Trump's decision to 
withdraw from northern Syria, clearing the way for Turkey to 
attack America's Syrian Kurdish partners. It is a decision I 
view as disastrous.
    To our witnesses, welcome to the Foreign Affairs Committee. 
Welcome to members of the public and the press, and thank you 
to our friends from C-SPAN who are broadcasting this important 
proceeding.
    I now recognize myself for an opening statement.
    This committee has a long tradition of bipartisanship. Mr. 
McCaul and I work on that every day. I think we are the most 
bipartisan committee in Congress.
    The main reason is that members on both sides tend to share 
a vision of American foreign policy and that is firmly rooted 
in and guided by our values, particularly, support for human 
rights and human dignity.
    We know that American leadership can and should be a force 
for good in the world. We know that on the world stage our 
country thrives on the power of partnerships and alliances.
    But as Congress, we are limited in what we can do to 
actually make foreign policy. We can advance legislation and 
send strong messages, and conduct oversight that we hope will 
push policy in the right direction.
    But at the end of the day, the tools to make policy largely 
reside with the President, and what we have seen these past 2 
weeks has been just devastating as far as I am concerned.
    It was around 2 weeks ago today that President Trump had a 
phone call with Turkey's President Erdogan, who more closely 
resembles an autocrat than the President of a NATO ally.
    Despite the Administration's spin, we all know that Trump 
gave Erdogan the green light to charge into northern Syria. 
What followed was completely predictable for anyone who's paid 
attention to the Middle East--a brutal campaign of violence 
against the Syrian Kurds, our partners who courageously stood 
alongside us in the fight against ISIS. All the worst case 
scenarios we imagined played out at stunning speed.
    To start, the betrayal of our Kurdish partners. We handed 
them over to be slaughtered and ethnically cleansed from a 
region where they have lived for generations with no warning 
and for no good reason.
    How could the United States do something so senseless, so 
disgraceful, so contrary to our values? What message does it 
send to our other partners and allies? To our adversaries? To 
our brave men and women in uniform who served alongside the 
Kurds?
    We also have to address the humanitarian crisis this has 
created. Already tens of thousands have been displaced--
families, women, and children. There are stories of gruesome 
killings, torture, and abuse, all set into motion by the 
President's horrific decision.
    And this decision was a body blow to our national security. 
President Trump has handed a gift to America's enemies--ISIS, 
Russia, and Iran.
    Coalition efforts to fight ISIS began under the Obama 
Administration and it had made a lot of progress. We had 
reclaimed territory and put thousands of ISIS fighters in 
prisons.
    Who ran those prisons? Our Kurdish partners. Now the Kurds 
are fighting tooth and nail to survive Turkey's assault. And so 
the fate of those thousands of ISIS fighters is now dangerously 
up in the air and more than 100 have already escaped.
    It is safe to say ISIS is celebrating President Trump's 
foreign policy right now. He's handed them their biggest 
victory in over 4 years.
    But they are not the only ones rejoicing. Assad regime 
forces in Syria, backed by Iran and Russia, are now filling the 
vacuum left by America's withdrawal.
    To see Russian-backed forces triumphantly moving in, taking 
over our American bases, is just disgraceful. It hurts. It is 
embarrassing, and Putin knows it.
    And for all these disastrous effects of Trump's initial 
decision, the President's actions to try to paper over this 
mistake has only done more damage.
    Last Thursday, the Administration announced they had 
negotiated a quote/unquote, ``cease-fire'' with Turkey. This is 
a pattern of President Trump's presidency. He likes to play the 
part of the fireman when really he is the arsonist who started 
the fire in the first place.
    I know Mike Pence, the Vice President, worked hard on this. 
But it was impossible to put out the fire. The reality of this 
5-day so-called pause is that Turkey got everything it wanted 
and that arrangement ended yesterday with no real plan from the 
Administration for what comes next.
    This is the worst example I have seen of what I call this 
Administration's fly by the seat of your pants foreign policy. 
One minute the President is shouting from the rooftops that he 
is fine with what Turkey is doing.
    But next he says he will destroy Turkey if they continue. 
One day he is bringing our soldiers home. The next he is moving 
them to continue their mission but just over the Syrian border 
in Iraq. And the day after that he is suddenly saying that some 
will actually stay in Syria after all, not to protect the 
Kurdish fighters, which we should do--the Kurdish fighters, who 
stood shoulder to shoulder with our personnel--but to protect 
the oil fields there.
    It is all a mess. There is only one thing that is certain 
here. the President, yet again, has created disaster. This is a 
troubling moment in our history, a stunning defeat for the 
United States offered up willingly by a president whom I 
believe is doing serious damage to American leadership around 
the world.
    Today, we need to hear how the Administration plans to 
grapple with the consequences. What sort of signal do our 
friends take from this whipsawed foreign policy?
    And our adversaries--what kind of message does it send to 
the world when the President cannot be trusted to act in the 
interests of the United States?
    How can America be trusted to keep its word when we betray 
one of our close partners? And how do we handle the threats of 
ISIS, Iran, and Russia, now that they have been handed a 
remarkable victory by the President of the United States?
    I look forward to hearing our witnesses address these 
issues. But first, let me recognize our ranking member, Mr. 
McCaul of Texas, for any remarks he might have.
    Mr. McCaul. Thank you, Mr. Chairman.
    The American-led campaign to destroy the so-called 
Caliphate in Iraq and Syria was a great military success in our 
ongoing war on terror.
    This achievement would not have been possible without the 
courage and sacrifice of our partners on the ground, including 
the Syrian Kurds, Arabs, and others, thousands of whom died on 
the battlefield in our shared quest to defeat ISIS.
    Our military partnership with the Syrian democratic forces 
is vital to our ongoing counter-ISIS operations to fight ISIS's 
insurgency, and that is why I have been so concerned about the 
possibility of withdrawing all U.S. troops from Syria.
    I firmly believe we need a residual force in Syria to best 
continue counterterrorism operations so that we can protect the 
homeland.
    I am worried that a full withdrawal will create space for 
ISIS to regroup, grow and gain more strength. We learned from 
President Obama's reckless retreat from Iraq that power vacuums 
are exploited by America's worst enemies.
    We do not want to repeat the same mistake. We must learn 
from history. I believe our Syrian partners deserve better. 
What kind of signal does it send to the international community 
that the United States will turn our back on our allies who 
suffered so much?
    We cannot achieve our goals on the world stage if we 
undermine our credibility and I am deeply concerned by Turkey's 
decision to begin military operations in Syria.
    Civilians on both sides of the border have killed. Over 
170,000 people have been displaced in the past 2 weeks in a 
region already experiencing a refugee crisis.
    The only people who benefit from more violence and more 
chaos are America's adversaries Vladimir Putin, Bashar al-
Assad, the terror-sponsoring dictatorship in Iran, and Islamic 
extremists in the area and around the world as shown by the 
deal that Erdogan struck yesterday with Putin.
    Today, members will have the opportunity to ask our 
witnesses questions about the Administration's approach to 
these critical issues, such as what are the implications of the 
past 2 weeks for the future of counter ISIS operations and the 
global coalition to defeat ISIS?
    How will we prevent Assad from expanding his war against 
the Syrian people to northeast Syria? What are we doing to 
prevent Turkey from forcibly displacing Kurds and resettling 
Syrian refugees along the border?
    How can we prevent Iran and Russia from exploiting this 
situation to their benefit?
    Last week, I was pleased to see a strong bipartisan 
majority of the House pass a resolution that I authored with 
Chairman Engel calling on Turkey to end this operation.
    Fortunately, I would say that Vice President Pence and 
Secretary Pompeo were successful in brokering a temporary 
cease-fire.
    But if Turkey continues its destructive campaign, we will 
quickly pass new bipartisan legislation that will bring hard-
hitting sanctions against Erdogan's government.
    But I hope this cease-fire works, and I know, Ambassador 
Jeffrey, I really look forward to your testimony here today. I 
know you are going to give some insight within the 
Administration as to what has taken place the last 5 days with 
the cease-fire.
    I want to thank you, sir, for being here right now. I know 
there will be a press conference at the White House in probably 
35 minutes.
    And let me just say also, sir, that I believe that you are 
the right man for this job at a very challenging time, and I 
personally want to thank you for your public service to this 
country and this Nation.
    And with that, I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    Now I will introduce our witnesses.
    Ambassador James Jeffrey currently serves as the Secretary 
of State's Special Representative for Syria Engagement and as 
Special Envoy to the Global Coalition to defeat ISIS.
    He has held several senior national security positions 
including Deputy National Security Advisor and Ambassador to 
Iraq, Turkey, and Albania.
    Mr. Matthew Palmer currently serves as the Deputy Assistant 
Secretary for the Bureau of European and Eurasian Affairs, with 
responsibility for Turkey, the Western Balkans, and the Aegean.
    He previously was the director of the Office of South 
Central Europe. He has served in Belgrade and Nicosia, the U.S. 
mission to the United Nations, and various positions in 
Washington, including the secretary's Policy Planning Staff and 
at the National Security Council.
    We also requested that the Department of Defense provide a 
witness for today's hearing, given their role in Syria, and 
this committee's jurisdiction over war powers and U.S. 
intervention abroad.
    Unfortunately, after initially committing to send a 
witness, they failed to follow through, which is unacceptable. 
I do not intend to let it lie and we will deal with it in the 
future. But we are not going to accept it.
    However, I do want to thank the witnesses who have appeared 
here today. Without objection, all the witnesses' prepared 
testimony will be made part of the record and I will now 
recognize the witnesses for 5 minutes each to summarize their 
testimony.
    Let's start with Ambassador Jeffrey.

 STATEMENT OF JAMES JEFFREY, SPECIAL REPRESENTATIVE FOR SYRIA 
ENGAGEMENT AND SPECIAL ENVOY TO THE GLOBAL COALITION TO DEFEAT 
                 ISIS, U.S. DEPARTMENT OF STATE

    Mr. Jeffrey. I thank you very much, Mr. Chairman, Mr. 
Ranking Member, members of the committee. It is an honor to be 
here today.
    Let me start with agreeing with the chairman that the 
Turkish incursion into northeast Syria is a tragedy. It was 
longstanding U.S. Government policy in two administrations to 
keep that from happening and we, clearly, were not successful.
    What I would like to do is to explain what we did when we 
were faced with this threat and what we have done since the 
Turks marched in.
    But first, I would like to turn to the larger situation 
that this is all embedded in in northeast Syria, which is the 
Syrian crisis since 2011.
    That crisis brings together the three disruptive 
destructive forces in the Middle East: A local dictator, who, 
as Ranking Member McCaul said, is a threat to his own people 
more than a beneficiary to them, with half of the population 
having fled his misrule; an ideological state on the march--
Iran, that has dug in in Syria and threatened its neighbors 
including Syria's neighbors including Israel; and third, 
various Islamic fundamentalist terrorist forces that have also 
grown up in the midst of this Syrian civil war since 2011 
including, in particular, ISIS, but there are others as well.
    American policy has been to do three--pursue three 
objectives: first, the enduring defeat of ISIS, and 
secondarily, other terrorist forces in Syria; second, to find a 
political solution working with the U.N. and the international 
community to the civil conflict that would produce a different 
kind of government than the one we have right now with 
President Assad; and three, to see the removal of all Iranian-
commanded forces from Syria. They have no positive role 
whatsoever to play there.
    In pursuing that policy, much of our attention, of course, 
has been in northeast Syria, which is where we carried out, as 
Ranking Member McCaul said, our very successful campaign 
against ISIS.
    But this was done with considerable friction from 2015 on 
with the important neighbor and NATO ally to the north, Turkey. 
Turkey long was very suspicious of the alliance we had with the 
local largely Kurdish force, first the YPG, which is an 
offshoot of the PKK, the recognized terrorist group that has 
been trying to conduct an insurgency against Turkey for some 
almost 40 years, and various other allies that are organized 
into what we now call the SDF--the Syrian Democratic Forces.
    For Turkey, for us these were an ally and a very good ally 
against ISIS, a very effective ally that lost over 10,000 
people killed.
    For Turkey, this was a threat to their borders, and our 
policy had been to try to find a way forward to balance 
Turkey's legitimate security concerns, our, and the people of 
northeast Syria's legitimate security concerns, particularly 
against ISIS but also to keep Turkey from going in, and our own 
interests, as I said, in pursuing ISIS and in finding a 
solution to the Syrian conflict that would, among other things, 
see the withdrawal of Iran.
    Turkey acted unwisely and against, as I will get to in a 
second, our advice and very strong admonitions. In doing so, it 
represents another phenomenon we have run into elsewhere in the 
Middle East; that is, powerful neighboring States that have 
different interpretations of their own security interests than 
we do.
    We felt that we provided enough security that Turkey did 
not have to worry about its southern border, at least in the 
northeast, and did not have to worry about the SDF.
    Turkey, beginning with its leader, President Erdogan, and 
most of the population thought otherwise and that was a tension 
that we dealt with, again, over two administrations.
    Things came to a head in October after we had actually 
worked an agreement with the Turks to do joint patrols and 
other joint activities in agreement with the SDF in a band that 
reached 30 kilometers deep along the whole northeast of Syria--
of northeast Syria.
    And at that time, on the 6th of October, President Erdogan, 
in a call with President Trump, announced that he was going 
forward with an offensive.
    As President Trump indicated later that day in a press 
release, we had long known that Turkey was preparing for this 
thing. Turkey had had troops in place actually for almost a 
year and had been threatening to do this.
    Our position provided to Turkey countless times, including 
by the President on the 6th of October, had four basic 
elements.
    One, and first of all, we did not approve of and would not 
in any way endorse such an operation.
    Second, even though requested by the Turks, we would not 
provide any support of any sort to such an operation.
    Third, we would act to counter such an operation but we 
would do so through diplomatic and other means such as the 
sanctions that were mentioned by Congress and the sanctions 
that were immediately slapped on Turkey by the Administration.
    But, third, and Turkey had long known this, we would not 
oppose a Turkish incursion by military means. I know of no 
decision at any point in either administration to use military 
force to deter Turkey from going into the northeast.
    We had done patrols in the Manbij area across the Euphrates 
at one point because we were concerned about Turkey coming in. 
But we never communicated to Turkey that we would use military 
force to stop them from moving across their border.
    Rather, we used diplomatic, economic, and other tools to 
persuade them that that would be a very bad decision, and it 
was a very bad decision.
    At this point, what we are focusing on is trying to stop 
this offensive. With the cease-fire that we negotiated on the 
17th of October, we succeeded in getting Turkish forces to 
freeze in place--they called it a pause--while the YPG forces, 
which were the core Kurdish forces--and the SDF withdrew from 
the central portion of what we call the safe zone, essentially, 
130 kilometers wide and 30 kilometers deep in the middle of the 
northeast.
    Turkish forces by and large lived up to that, as did the 
YPG, and last night the Turks announced that they would make 
this pause essentially permanent by halting their forces and 
ending their whole operation.
    So we saw that as a success. Meanwhile, Turkey tried to 
find ways that it could penetrate other parts of the northeast.
    President Erdogan yesterday went to Sochi, Russia, to talk 
with President Putin and Putin would not allow the Turks to 
penetrate into the other areas but, rather, they agreed on a 
joint patrolling regime rather similar to what we had in August 
with the YPG to pull back, supposedly.
    But we have to see the details of that agreement. Again, 
right now, the northeast is quiet, other than some minor 
shooting and some minor movements between the Turkish and the 
YPG forces, and we expect it to stay quiet.
    What we are doing now is to urgently determine what our 
future policies are in the enduring defeat of ISIS and we are 
considering options for our forces.
    the President has ordered all American forces in the 
northeast on the ground to withdraw in a deliberate and orderly 
withdrawal that will take some time.
    But we are also looking at what the options are for 
military and other support to the SDF to continue the fight 
against ISIS and to maintain stability in the northeast.
    Again, no final decisions have been taken. This is under 
review at this time. So I cannot tell you what the decision 
will be, simply, what the basic parameters are, what our goals 
are, and the various ways we are trying to achieve such a 
success.
    I will stop there, Mr. Chairman.
    [The prepared statement of Mr. Jeffrey follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. I thank you.
    Mr. Palmer.

STATEMENT OF MATTHEW PALMER, DEPUTY ASSISTANT SECRETARY, BUREAU 
   OF EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Palmer. Thank you, Mr. Chairman.
    I do not have a formal opening statement but I do look 
forward to answering any questions members of the committee may 
have specific to the U.S.-Turkey bilateral relationship.
    Thanks.
    Chairman Engel. Thank you. Thank you very much.
    Ambassador Jeffrey, let me ask you this.
    According to media reports, including Fox News, President 
Trump went off script during the October 6th call in which he 
was supposed to tell Erdogan to stay north of the border.
    Instead, the President capitulated, gave the green light 
for Turkey to invade, then announced the United States would 
withdraw all troops from northeast Syria ahead of a Turkish 
operation.
    Let me ask you, first of all, were you consulted ahead of 
the October 6th call with President Erdogan?
    Could you push the button, please?
    Mr. Jeffrey. I was consulted almost daily on that and other 
Syria questions by Secretary of State Pompeo, and I know that 
Secretary Pompeo discussed this issue and many other issues on 
an almost daily basis with President Trump.
    This is something that we have been working on since 
President Trump first raised the issue publicly of withdrawing 
forces in the spring of 2018 and, of course, he had taken a 
decision to do so that we were slowly executing in December 
2018.
    So, in that sense, yes, I was consulted.
    Chairman Engel. Do you agree with the President's decision 
to abruptly announce the withdrawal of U.S. forces in Syria 
following the October 6th call?
    Mr. Jeffrey. It is the duty of a Commander in Chief to make 
such decisions with the support of the consultation of the U.S. 
Congress and the American people.
    It is not my job to decide on whether we should keep troops 
in a very dangerous situation or not. My job is to explain what 
will happen if you do pull these troops out.
    And the President was well aware that with the troops being 
withdrawn we would have less ability to work with the SDF 
against the remnants of ISIS.
    But he also, as the Commander in Chief, had as his first 
responsibility force protection for our troops. We had a 
situation we knew that the SDF would ask for the Russians and 
the Syrians to come in, and they did so, and we had told the 
Turks that would be a direct result if they came in.
    We had Turkish troops and Turkish supported very, very 
dangerous and, in some cases, extremist opposition elements 
coming in, and the President had a responsibility to keep his 
forces out of the way.
    That was a major consideration in his decisions including 
withdrawing forces.
    Chairman Engel. I am glad that Vice President Pence was 
able to negotiate a cease-fire temporarily so that our Turkish 
allies could get out of their territory with their lives 
intact.
    But are we not really aiding and abetting ethnic cleansing 
by allowing them to do that?
    Mr. Jeffrey. We have not seen any widespread ethnic 
cleansing in that area since the Turks have come in. Many 
people fled because they are very concerned about these 
Turkish-supported Syrian opposition forces, as are we.
    We have seen several incidents which we consider war 
crimes. But we have, as part of the agreement with Turkey, 
specific language on the proper care of civilians and our 
monitoring responsibility that we have to work with the Turks 
to ensure that exactly that does not happen in that area.
    Chairman Engel. But it is true that as a result of Turkey's 
actions over 176,000 Syrian Kurds have been forcibly displaced, 
which amounts to a concerted effort to displace Kurds from 
their native lands. So, again, sounds like ethnic cleansing to 
me.
    Mr. Jeffrey. The numbers are correct. But the area that the 
Turks came into, Mr. Chairman, that is mainly an Arab area. We 
did not do a survey of who these people are.
    But, as I said, most of the people in that area are ethnic 
Arab, not ethnic Kurdish, and they withdrew on their own. There 
was no effort that we sought to try to push them out.
    Now, it could be that the behavior on those incidents that 
we saw and other incidents that we may learn about soon 
provoked some departures of people. But we saw no widespread 
effort to try to push people out of their homes in that area 
where the Turks moved into.
    Chairman Engel. But how will--two questions. How will the 
U.S. counter increased Russian, Iranian, and Assad regime 
influence and control, which are directly from the result of 
the U.S. withdrawal and what is left to prevent the Turks--the 
Turkish military and its affiliated militias from continuing to 
ethnically cleanse northeast Syria of Kurds?
    Mr. Jeffrey. Again, through diplomatic means. The thing 
that provoked all of this was the very unwise, very tragic 
Turkish incursion into northeast Syria. That provoked a whole 
series of events that we are discussing today.
    As I said, we have stemmed that Turkish movement forward 
through this agreement, and right now we are going to work with 
the Turks and the Russians--we do not work with the Syrian 
regime--and our SDF partners to continue the fight against 
Daesh and to try to do exactly those things that you said to 
maintain civility.
    We have had some successes with the Russians in Syria and 
we have had some failures with them in stabilizing areas. We 
will see how this one works out.
    Chairman Engel. Well, let me ask you this.
    Yesterday, in testimony to the Senate, you confirmed the 
State Department is aware of you said dozens of detained ISIS 
fighters that escaped SDF custody following the Turkish 
incursion.
    Also yesterday Secretary Esper stated to CNN that a bit 
more than a hundred ISIS detainees have escaped. We know from 
previous briefings these ISIS detainees are among the most 
dangerous fighters intent on attacking the United States and 
our allies.
    So let me ask you this. How many ISIS detainees have 
escaped? Does the U.S. have an idea where these individuals are 
and is the U.S. able to monitor or effectively operate against 
ISIS, given the withdrawal of U.S. forces?
    Mr. Jeffrey. Again, as Secretary Esper said, we would say 
that the number is now over a hundred. We do not know where 
they are. Almost all of the prisons that the SDF were guarding 
are still secured.
    The SDF still had people there. We are monitoring that as 
best we can. We still have forces in Syria working with the SDF 
and one of the top priorities is these prisons.
    Chairman Engel. Let me just say, in conclusion, that I 
think what we did is so catastrophic it really affects our 
ability to operate in that part of the world.
    It affects our ability to be effective in that part of the 
world. I am--I always speak my mind on foreign policy. I do not 
care what Administration it is or what party the Administration 
comes from.
    I did not particularly like the Iranian agreement and I 
spoke out and voted against it. I think what happened here with 
the removal of American troops is catastrophic. Absolutely 
catastrophic. And has the worst repercussions for this country 
for days and weeks and months to come.
    I am just sick over it and I think that is why we got this 
strong bipartisan resolution in the Congress condemning it.
    And I just--I have been here a long time. I hardly remember 
policy that has been as bad as this, in my opinion.
    Thank you.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Ambassador, I just want to give you an opportunity to 
clarify what I think has been very confusing about what took 
place over the last week or so.
    We were in the White House, the Chairman and I, with the 
President, Secretary of Defense, and the Joint Chiefs of Staff 
Chairman, General Milley.
    And I know the President had a conversation with Erdogan. 
There has been this talk of green lights being given to allow 
the Turks to come in and invade Syria.
    But then when I talked to General Milley, he told me that 
it was his recommendation because the Turks were threatening 
our soldiers and that they were in harm's way.
    So can you perhaps add some clarity to how this decision 
was made and what actually happened?
    Mr. Jeffrey. Sure. It is a little hard to do this without a 
map but I will try.
    Mr. McCaul. And I think we do--we do have a map, and I want 
to turn to that in a minute. But this is more of a sequence of 
events in terms of this Turkish invasion.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Mr. Jeffrey. OK. First of all, I think, to set the record 
straight, I know of no American policy or commitment by anyone 
in a position to give a commitment--and that is a senior 
official, military or civilian--to either Turkey or to our SDF 
partners that we would use American military force to stop a 
Turkish incursion into northeast Syria.
    On I think it was the Stephanopoulos show on Sunday former 
Secretary of Defense Ash Carter from the Obama administration 
said that explicitly.
    Our commander at that time in the field, Tony Thomas, a 
little bit later on ``Face the Nation,'' made similar comments. 
When he was pressed, he said, well, we talked to the Kurds 
about--by the Kurds we mean by that the SDF--about a possible 
role that we wanted in a future democratic Syria through the 
U.N. process and such.
    But I know of no commitment to protect them by military 
force nor did I ever see any indication that the Turks felt 
that we were using military force to protect them.
    In fact, what you had was, as you look at the map, most of 
the American forces in Syria were along the Euphrates, south of 
that reservoir because that is where ISIS is and that is where 
most of the SDF forces were, too, fighting the remnants of 
ISIS.
    You had a small American force in Manbij across the 
Euphrates to the west, and just to the east of the Euphrates in 
Kobane, you had American--an American air base, essentially, 
and the logistical and command and control headquarters.
    That was where many of the American forces were. That is, 
there were no American forces in that area that is now kind of 
blue where the Turks came in other than two outposts that have 
been put out there back in November 2018, largely, because of 
showing from the Turkish side into Syria and accusations from 
the Turks that they were being fired on and that they wanted to 
return fire.
    So we said we will put some observation posts out to see 
who is firing at who to ascertain that. We never told the Turks 
that those two observation posts were a defense against Turkey 
coming over.
    They had about 12 people in each covering a perimeter--
well, there was a third one but between the three it was about 
300 kilometers. Nobody on the Turkish side ever thought that 
that was a deterrent or that that was a signal that we would 
stop them militarily. What----
    Mr. McCaul. And my time is going to expire and I had 
several other questions. But I think maybe you could clarify 
for the record the sequence of events and how this decision was 
made to withdraw and I think that as we talked before, there 
was no green light given to the Turks.
    I think they were going to invade one way or the other, it 
sounds like, and now we have to make this cease-fire happen.
    What I did stress with both General Milley, the Secretary 
of Defense, and the President was I do not want to make the 
same mistake we made in Iraq--10,000 troops, ISIS formation 
caliphate.
    I was promised that we were not going to withdraw from 
Syria--that there would be a residual force to protect the 
homeland. Is that still the case today and where would that 
residual force be in Syria?
    Mr. Jeffrey. We are working on possible options. I cannot 
commit to a final decision on a residual force in the 
northeast. the President did decide that we would keep a 
residual--we would keep our force in al-Tanf.
    Al-Tanf is that blue area at the bottom of the Syrian map. 
That decision has been taken. We did not take a decision one 
way or the other on air, and a decision on whether we would 
keep some forces on basically in the eastern half of the yellow 
area is still under review at the highest levels.
    Mr. McCaul. When I was with the General at CENTCOM he said 
he was going to recommend to the Secretary of Defense the--
where oil fields are in the northeastern quadrant of Syria, 
correct?
    Mr. Jeffrey. That is my understanding. But again, these are 
recommendations that are still part of internal----
    Mr. McCaul. I hope the President takes that advice.
    Who is going to fill the vacuum?
    Mr. Jeffrey. That is one reason why we are doing this 
review, to see how we and our SDF forces almost all of whom are 
intact because the fighting did not--we think that the 
casualties on the SDF were in the hundreds in the battle with 
the Turks.
    So they are still a force and being of many tens of 
thousands. At one point, there were 100,000.
    Mr. McCaul. I think the Russians and Assad and Iran are 
going to fill the vacuum. That is my opinion.
    Refugees--is there any threat that Turkey's going to dump 
their 4 million refugees in this northern buffer zone?
    Mr. Jeffrey. We never thought that that was a realistic 
option and we told the Turks that many times.
    Mr. McCaul. So there has been some discussion, and you can 
clarify it, there is going to be 20 miles--20 kilometers or 30 
kilometers into Syria, this northern buffer zone. Then it was 
just the middle part. Now it is the entire northern part of 
Syria.
    What is the final agreement that was reached between Putin 
and Erdogan with respect to how large of a swathe are we 
talking about?
    Mr. Jeffrey. Again, where you see the blue in the middle 
that is, roughly, the area that we have our agreement with the 
Turks. To the west and to the east of that, all the way to the 
Euphrates and all the way to the Iraqi border and in two areas 
to the west of the Euphrates. That is Manbij right north of the 
reservoir and a small area on Tal Rifaat near Aleppo.
    The agreement is that the Russian military police and some 
Assad border police would escort or find some way to negotiate 
for the YPG/SDF to depart. In the case of the northeast, they 
would pull back 30 kilometers and that for 10 kilometers south 
of the Turkish border there would be eventually Russian-Turkish 
patrols----
    Mr. McCaul. So it is gone from 30 now to 10 kilometers so 
it is a smaller buffer zone?
    Mr. Jeffrey. It is not only smaller but this idea of having 
done joint patrols with the Turks and seeing how difficult it 
is, essentially, the Turks have no territory passed to them as 
part of this agreement with the Russians.
    Mr. McCaul. Final question. The prisons--who is securing 
the prisons with 10,000 of the worst of the worst of ISIS?
    Mr. Jeffrey. The SDF are still securing the prisons.
    Mr. McCaul. Well, do you feel confident that they can do 
that?
    Mr. Jeffrey. We are confident at this point that they are 
doing that.
    Mr. McCaul. OK. I yield back.
    Chairman Engel. Thank you.
    Before I call on our next member, I have to just say, 
Ambassador Jeffrey, you have a very hard job in defending what 
is not defendable and I, again, want to just voice my disgust 
with what the President did and allowed to happen.
    I think that will affect us for years and years and decades 
to come, and I think will go down as one of the major American 
blunders in history. I just think what we have done there is 
shameful.
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman. Thank you, Ambassador.
    Ambassador, I have a picture here that was yesterday in the 
Washington Post. I know you cannot see it. I could get a larger 
one.
    But it basically is Trump, Putin, Erdogan, and the 
President's has his arm around Putin. OK. To me, I find that 
picture disgusting. This is a man who is hell bent on 
destroying democracies, hell bent on destroying America, and we 
always seem to give in to him.
    This is a man that now that we have a void there is going 
to move in there. He is creating problems all over the world. 
He is now in the Western Hemisphere, creating problems in 
Venezuela.
    It is all to destroy our democracy and I cannot for the 
life of me understand why this President is so--I do not know. 
It is like his best buddy. This is not someone that is out to 
help us or work with us. It is out to destroy us.
    I grew up in a communist country before coming here, and 
this is the guy that was the KGB. Now he is the leader of the 
Communist Party. He is the one that was going to put nuclear 
weapons 90 miles from this country.
    When is this President going to wake up to the fact that 
this guy is not our friend? I think he is playing him like a 
fiddle, and this decision to abandon the Kurds plays right up 
to him in Iran and Erdogan.
    Maybe there is no cleansing going on now. But there is a 
history in Turkey of doing cleansing, especially with the 
Armenians.
    So I am concerned that maybe not now because the world's 
eyes are all over him, but sooner or later he is going to start 
his cleansing and taking, taking more territory. And what are 
we going to do about it?
    We have no real way of stopping him. And you know what is 
more disgusting? I saw pictures yesterday in the news people 
throwing potatoes at our armed forces.
    Someone who relishes this country, I cannot--it just turned 
my stomach yesterday that our people--that our armed forces who 
have defended this country forever, defended democracy, and we 
have people throwing potatoes.
    I do not know about this President but I have to tell you, 
the military cannot be happy with this guy. So, I mean, I have 
a ton of questions to ask you about who is going to fill it, 
what are we going to do.
    And you know what is wrong with you saying that we are 
going to sit down and figure out the policy from now on? Does 
not make any sense because with this President one phone call 
and he changes.
    He does not take advice from the people who know. This guy 
cannot even run a casino in New Jersey, let alone our foreign 
policy that is so important to this country.
    So when you say to me that we are now evaluating what are 
we going to do, look, I get it. You are a professional. You are 
a smart man. You are a credit to this country and you have a 
very hard job to do.
    But I just do not believe that anything or any policies 
that people put together is going to make any difference to 
this President. I am very concerned about America. Very, very 
concerned.
    Because we are the bastion where people look up to us. 
Everywhere around the world nobody's trusting us because of the 
decisions that are being made by the White House, not 
necessarily by the people who know.
    So, Ambassador, I feel that you have a very difficult job 
and I know you will do the best you can for this country. But, 
again, I just--this picture just turned my stomach when I saw 
it, and I apologize if I gave you a tirade.
    And I have no questions.
    Mr. Jeffrey. I understand, Congressman. One comment--my 
instructions from Secretary Pompeo from day one, and I have 
every reason to believe they were to him from President Trump, 
was to act to counter Russia's efforts in the Syrian conflict, 
to obtain a military victory over Assad and his Iranian 
henchmen and that is what I was doing every day and that is 
what my orders remain to do, at least on the Syrian account.
    On others, you have to ask other people up here for their 
problems because I am pretty occupied with this one, and that 
is a big part of my mission is to contain Russia.
    Mr. Sires. I thank you for your hard work.
    Chairman Engel. Mr. Chris Smith.
    Mr. Smith. Thank you, Mr. Chairman, and welcome. Thank you 
for your service to our two distinguished witnesses.
    You know, back in 1991, tens of thousands of Kurds fleeing 
Saddam Hussein traveled to the Kurdish border. They were 
blocked from gaining entry.
    President George Herbert Walker Bush initiated operations 
to provide comfort, largely organized out of Incirlik. It 
provided masses amounts of food, clothing, and shelter. U.S. 
Special Forces saved probably thousands, certainly hundreds, 
from exposure and sickness before the NGO's could kick in.
    I traveled with a group of members to the border back then. 
Biggest takeaway--the Turks absolutely refused to help men, 
women, and innocent children and, second, they were seething 
with animosity toward the Kurds, and I am telling you something 
that you already know. Most people, I think, know it as well.
    But I was struck by that animosity. Reminded me of the 
hatred they had for the Armenians that led to the Armenian 
genocide. It was just seething.
    One man took a meal ready to eat--MRE--from a pallet left 
there by our government--by our military--and he shot him in 
cold blood, the day after we left.
    Fast forward to now. When given the opportunity, they will 
seize it. So I have a couple of questions. My good colleagues 
before had asked many of the questions that I have.
    But, frankly, I would like to ask about the use of white 
phosphorous, a terrible, terrible chemical agent. When it is 
used for camouflage, it is one thing. When it is used to kill 
innocent people, and there is at least some indications that it 
has been used against at least six people who inhaled it. The 
Red Crescent for--the Kurdish Red Crescent said six patients 
with burns are watching. If so, this is a war crime. I wonder 
what you could tell us about that.
    On sanctions the PACT Act and a bill introduced by Liz 
Cheney makes clear that we want sanctions. One goes further and 
says even Erdogan should be sanctioned. But there was the 
sanctions put out by the President, Executive Order 13894.
    If you could speak to that and how well that is being 
implemented, which went after the defense minister and the 
interior minister. It ought to go right to the top, I would 
respectfully submit.
    Erbil--I have been to Erbil. I know the Kurds there and the 
Christians--the Yazidis who fled, obviously, for their lives 
from ISIS. They have been very much concerned about an 
incursion there. Your thoughts on what happens there?
    And, again, if you could speak to this use of weapons. And 
finally, in both bills--the chairman's bill and Mr. McCaul, of 
course, is the lead Republican sponsor--I am proud to be a co-
sponsor as well--also talks about denying military assistance 
to Turkey. Both bills do it. Do you think that is a prudent 
act?
    We all remember back in 1974 when the Turks went into 
Cyprus. They used our materiel, what we provided to suppress 
Cyprus and to kill many. We ought to hold them to account and I 
do hope Section 4 of both bills had that sanctions on providing 
any kind of military assistance to Turkey.
    Your thoughts on that?
    Mr. Jeffrey. On the white phosphorus, we have seen one 
report of the use of white phosphorus. We are looking into 
that. White phosphorus is tricky because, as you indicated, it 
has military uses and you have to almost determine not what 
happened but what the intent was. But as I said, we are looking 
into that. There was only one incident of that, I believe.
    In terms of the sanctions that we imposed on three 
ministers and two ministries on the 14th of October on the 
basis of the Executive Order that was published that day for 
Syria sanctions because of the incursion, we started 
implementing immediately.
    As part of the agreement with Turkey on the 17th of October 
last Thursday we agreed not to impose any new sanctions under 
that Executive Order and, based upon the fact that the Turks 
have declared in accordance with our agreement that their 
offensive is over--what they call Peace Spring--as of last 
night we are about, I believe, to lift those sanctions.
    But I want to underline the sanction Executive Order 
remains in place. We can just as quick as we did last time 
impose new sanctions under that Executive Order if we are not 
happy with the behavior of the Turks or anybody else that is 
covered in that very, very broad and very, very powerful 
sanctions instrument.
    In terms of congressional sanctions, again, there are a 
number of them out there. I saw how helpful they were in 
getting the Turks to a cease-fire. But I have to say that we 
would want to look at these very, very carefully for two 
reasons.
    First of all, we are concerned about very important 
military relations and very positive ones that we do have with 
Turkey. And second, as a general rule, we see sanctions as 
incentives to change behavior, which means that there has to be 
waivers or other Presidential decisionmaking involved--
executive branch involved in such sanctions.
    If there are no waivers, if it is absolute even when the 
behaviors change, it is often very hard to get these things 
lifted, and then we have the worst of two worlds. We do not get 
the behavior changed and we are punishing people that--in other 
places and on other issues we want to work with.
    Chairman Engel. Thank you.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    Ambassador Jeffrey, Mr. Palmer, thanks for being here. 
Thanks for your service.
    Were--Ambassador Jeffrey, were you on the October 6th call 
with President Erdogan?
    Mr. Jeffrey. I was not.
    Mr. Deutch. Mr. Palmer, were you?
    Mr. Palmer. No, sir.
    Mr. Deutch. Do you know--Ambassador Jeffrey, do you have a 
list of who was on that call?
    Mr. Jeffrey. I do not.
    Mr. Deutch. Is it possible for you to get that list?
    Mr. Jeffrey. As a general rule, we do not publish who is on 
the list of people who listen to the President's telephone 
calls.
    Mr. Deutch. I understand. Is it--is it possible to get a 
transcript of that call, Mr.--Ambassador Jeffrey?
    Mr. Jeffrey. That you would have to ask of the White House. 
Again----
    Mr. Deutch. We have asked. There is a request in. But is 
there any reason not to provide that?
    Mr. Jeffrey. As a general reason, executive privilege 
covers that.
    Mr. Deutch. I understand, as a general rule. In light of 
this conversation I hope you can understand why we think it is 
so important.
    Ambassador Jeffrey, in testimony before this committee in 
May you stated that the Administration is pursuing three 
mutually--reinforcing whole of government strategic objectives: 
the enduring defeat of ISIS, the removal of all Iranian-led 
forces from Syria, and the resolution of the Syrian crisis 
through a political solution.
    Your written statement submitted today claim these three 
objectives main the goals. So I just have some questions.
    Does the rapid removal of U.S. troops from northeastern 
Syria make a revival of ISIS more or less likely?
    Mr. Jeffrey. Congressman, those troops were sent in----
    Mr. Deutch. Ambassador Jeffrey, I am just asking your 
opinion. Does it make it more or less likely that ISIS will be 
reconstituted after this is----
    Mr. Jeffrey. Well, not in my opinion. It was U.S. 
Government policy. We had the troops there----
    Mr. Deutch. I understand the policy. Do you think it is 
more or less likely that ISIS will reconstitute as a result of 
this decision?
    Mr. Jeffrey. If those troops are withdrawn fully, a very 
important tool we had to keep ISIS under control will be gone. 
That is correct.
    Mr. Deutch. That would make it more likely.
    Does the withdrawal of U.S. troops make reducing and 
expelling Iranian influence from Syria more or less likely?
    Mr. Jeffrey. That is a tougher one to give you a yes or no 
on because that was not the mission of the troops, particularly 
in the northeast.
    Mr. Deutch. I understand. I understand. It is tougher, but 
this is your--you are in charge of Syria policy. Iran and the 
threat Iran poses in Syria is of vital interest to me and this 
committee. So I am just asking your conclusion here.
    Mr. Jeffrey. Right, and I will stick with the troops were 
there to participate in de-ISIS and removing them----
    Mr. Deutch. I understand.
    Mr. Jeffrey [continuing]. Is a challenge to that mission.
    Mr. Deutch. Is it a challenge also to preventing Iran from 
establishing greater influence?
    Mr. Jeffrey. It is a challenge to maintaining stability in 
the northeast which, in turn, puts--pushes Syria in a good 
direction.
    Mr. Deutch. I will take--I will take that as a yes.
    Does the removal of U.S. troops diminish or strengthen our 
ability to shape an ultimate political solution to the 
conflict?
    Mr. Jeffrey. The troops were not the primary tool----
    Mr. Deutch. I understand. I understand. I understand, and I 
have great appreciation for all you do. I am just asking about 
this decision and whether this decision to remove the troops 
without consultation with our allies and to do it as rapidly as 
we did and to turn our back on the Kurds and everything that we 
have discussed already today does it diminish or strengthen our 
ability to shape a political solution with the conflict?
    Mr. Jeffrey. Our focus on the troops, the withdrawal, and 
what we might do including looking again at the withdrawal is 
mainly focused on the de-ISIS issues. We can find other ways to 
pursue our broader political----
    Mr. Deutch. So we are just as strong--our diplomatic 
ability is just as strong--is your testimony that our 
diplomatic ability is just as strong today as it was before we 
removed our troops?
    Mr. Jeffrey. We will have to make certain adjustments to 
our policies on the basis of that.
    Mr. Jeffrey. OK. Ambassador Jeffrey, yesterday you told the 
Senate Foreign Relations Committee that the President did not 
consult you, his point person on Syria, before this decision.
    When was the last time you briefed the President on your 
efforts as special representative for Syria?
    Mr. Jeffrey. I have never briefed the President nor would I 
have expected to brief the President. I work for Mike Pompeo.
    Mr. Deutch. And when was the last time you briefed 
Secretary Pompeo?
    Mr. Jeffrey. Almost daily for the last 14 months.
    Mr. Deutch. Including October 5th? Was there a briefing on 
October 5th or October 6th, the day before or the day of the 
call?
    Mr. Jeffrey. I am almost certain that between the 4th and 
the 6th----
    Mr. Deutch. Yes.
    Mr. Jeffrey [continuing]. I had at least one conversation 
with him.
    Mr. Deutch. And was Secretary Pompeo consulted before the 
President made this decision?
    Mr. Jeffrey. You would have to ask Secretary Pompeo that 
specific question. What I can say for the record is Secretary 
Pompeo has been consulted very, very frequently--almost daily--
by the President on Syria issues and the question of U.S. 
forces there has been a very important part of that discussion.
    Mr. Deutch. I appreciate that, Ambassador Jeffrey.
    Before we wrap up, I just want to flag a few things that 
you have said--you have said today. I note the contrast between 
seeing it as a success that Putin, you said, would not allow 
them to go into other areas. Would not allow them.
    In our case, you said that Turkey acted unwisely and they 
acted against our advice. It was our advice that we not--that 
they not do what they did, and if it was our policy, as you 
have said, that throughout this entire presence in Syria--
throughout the entire presence, all we were doing was advising 
and the moment--and is it your testimony that because we never 
intended to use our troops to defend the Kurds that the moment 
Erdogan made a phone call to President Trump and said, I am 
going in, this was always the inevitable result?
    Mr. Jeffrey. Yes, I knew I was going to get in trouble when 
I said Putin would not allow. By that sense I mean Putin has 
certain diplomatic and economic----
    Mr. Deutch. Leave Putin out. Answer--if you could answer my 
question. Was this always--was it inevitable, since all we were 
doing was offering advice and, as you testified today, we were 
never going to defend the Kurds militarily?
    Was it simply inevitable that eventually this was going to 
be the result of our policy? Is that your testimony today?
    Mr. Jeffrey. No, not at all. Quite the contrary. We had--
first of all, the President had very powerful tools to be used 
both as incentives and sticks with Turkey including the CAATSA 
sanctions, including $100 billion trade package, including a 
visit to the United States. These were all raised in the 
October 6th call. So the idea we----
    Mr. Deutch. And I raised--and then I would just conclude, 
Mr. Chairman--and, ultimately, if we had all these tools then 
the President either failed to utilize them or he simply rolled 
over for Erdogan. Is that not right?
    Mr. Jeffrey. No. I would say a third alternative. That is, 
that the Turkish government made a terribly bad and very, very 
dangerous decision----
    Mr. Deutch. That has resulted in not--as you have said, not 
widespread ethnic cleansing--not widespread ethnic cleansing, 
but at least, apparently, some ethnic cleansing, and there was 
a reference, you said, to war crimes and to the extent there 
are war crimes is there--my last question--is there 
consideration of taking--of taking Turkey to the Hague if that 
is--if war crimes have been committed?
    Mr. Jeffrey. On the war crimes we are looking into those 
allegations and we actually have a set of packages. We have 
taken steps to--we have sent a high-level demarche to Ankara 
demanding an explanation and we will look at the various 
options.
    But you are absolutely right. One reason we tried so hard 
to stop the Turks from coming in is that we knew it could lead 
to all of the things you mentioned and more.
    Mr. Deutch. Right. I am sorry they did not take our advice.
    I yield back.
    Chairman Engel. Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman, and I have the utmost 
respect for you and my colleagues on the other side--Mr. Sires. 
But I find the level of hypocrisy is nowhere close to 
bipartisanship in here.
    You know, what I see is you do not like President Trump. 
You do not like his policies, and I hear that coming out 
through the last member that testified.
    President Trump, you said, through his actions, created a 
humanitarian crisis--that is terrible. I agree, there is a 
humanitarian crisis but there has been a civil war going on 
over there for over 8 years. Eight hundred thousand people have 
died. The largest exodus of people on the planet since World 
War II----
    Mr. Deutch. Will the gentleman yield? If----
    Mr. Yoho. I will yield if I reclaim my time.
    Mr. Deutch. I would be--I would be more than willing to 
engage in a discussion about whether this action to withdraw 
our troops at this moment, turning our back on the Kurds, has 
created a humanitarian crisis for the Kurds. And if the 
gentleman is suggesting it has not, then perhaps that is worthy 
of a longer conversation.
    Mr. Yoho. I will happy--reclaiming my time--and I am happy 
to do that and I think we should do a special order on this.
    But to say that President Trump has caused this I think is 
erroneous.
    Mr. Sires, you were saying that the picture of Putin and 
Trump and Erdogan was terrible. Did you feel that way about 
this picture with President Obama and Raul Castro?
    You know, so the hypocrisy----
    Mr. Sires. May I--may I answer you?
    Mr. Yoho. Go ahead, since I----
    Mr. Sires. You know that I did. Okay.
    Mr. Yoho. But I do not hear it--I do not hear it. You know, 
it is like it is Okay there----
    Mr. Sires. No, but you were on the committee with me and 
you know how I did not disagree.
    Mr. Yoho. I am on the committee. I am reclaiming my time.
    Mr. Sires. Good.
    Mr. Yoho. So, Ambassador Jeffrey, you stated that Turkey 
had been staged in the northeast area for approximately a year. 
Is that true?
    Mr. Jeffrey. Turkey had what in the northeast?
    Mr. Yoho. They have been staged there with troops and----
    Mr. Jeffrey. Right, along the border they had threatened to 
go in if they could not get certain concessions that we would 
not make to deal with what they saw was a existential problem 
of 100,000 people under, again, what they thought was PKK 
control.
    Mr. Yoho. OK. I am going to ask you, Mr. Palmer, because 
you look lonely there--since you said you were the number guy, 
how many troops did they have there in the northeast area of 
Syria?
    Mr. Palmer. I apologize, Congressman. I cannot give you a 
hard number on that. I would have to come back to you.
    Mr. Yoho. Ambassador Jeffrey.
    Mr. Jeffrey. It was 25,000 across----
    Mr. Yoho. Twenty-five thousand troops.
    Mr. Jeffrey. Yes, that is--at this point but they had the 
numbers fluctuated between the fall of 2018 and at present. At 
present, it was about 25,000.
    Mr. Yoho. All right. Let me ask you this. How many troops 
did the U.S. have in that area where Turkey was going in to do 
what they did here?
    Mr. Jeffrey. Again, I have--I will get to the answer. It 
was----
    Mr. Yoho. Was it thousands?
    Mr. Jeffrey. It was less than 30. But, again----
    Mr. Yoho. Less than 30 troops?
    Mr. Jeffrey [continuing]. The mission was not--this is not 
even apples and oranges. It is kind of apples and, I do not 
know, rocks.
    Mr. Yoho. All right. So the troops we are talking about 
withdrawing are approximately 30 in that area, right?
    Mr. Jeffrey. Right. But one of the problems, to be honest, 
is when we talk about withdrawals in all of this discussion we 
are talking about two withdrawals.
    Mr. Yoho. Right.
    Mr. Jeffrey. A very specific withdrawal on the 6th of 
October on General Milley's recommendation of those two tiny 
outposts because they were in the area where there was going to 
be fighting.
    Mr. Yoho. Of approximately 30 troops.
    Mr. Jeffrey. Right.
    Mr. Yoho. OK.
    Mr. Jeffrey. And then there was the overall withdrawal of 
everybody, which was a separate decision taken some time later.
    Mr. Yoho. I just want to get things in perspective. So this 
was not a massive troop withdrawal in that area. Now, there are 
2,000 troops that are going to be removed later on, correct?
    Mr. Jeffrey. It was under a thousand troops but they have 
been reinforced----
    Mr. Yoho. OK. So it is not a massive--and I agree, the 
Kurds have to be protected in some form. How long have we 
talked about creating a safe zone in the northeast corridor of 
Syria and Turkey?
    Mr. Jeffrey. We have had conversations on doing something 
like that since the Obama administration.
    Mr. Yoho. Right, and I have been here for 7 years and we 
have talked about a safe zone--a free safe zone between that 
area so that we can put refugees in that area so that they are 
protected.
    Is that what is happening between Russia and Erdogan now--
Erdogan? They are talking about a safe zone, that 20-mile area, 
roughly?
    Mr. Jeffrey. I happen to be pretty cynical about this 
agreement.
    Mr. Yoho. I am going to be real cynical about it. But if 
they can accomplish that, is that not what we have been trying 
to do?
    Mr. Jeffrey. They are not going to accomplish anything good 
with that agreement, Congressman.
    Mr. Yoho. Well, and that goes to the underlying problem. 
There is not a good solution to this Syrian outcome because you 
have Assad. He is trying to fight the ISIS rebels and he is 
doing genocide over there.
    Then you have Turkey trying to get Assad out for their 
reasons. You have got Russia propping up Assad for their 
reasons and they are going to work with Turkey that wants to 
get rid of Assad. Then you have Iran in there for their reason, 
working against us.
    So I think any way that we can get out of there with 
protection to the--to the Kurds and give them as much support 
but God help them and the other people because we have to look 
at the genesis of how we got into Syria and why we got into 
Syria.
    And it was the rapid withdrawal of massive amounts of 
troops coming out of Afghanistan and Iraq that created the void 
that ISIS filled, and then the no-fly zones in Libya that took 
out Gaddafi's defense that allowed ISIS to have training camps 
and recruitment camps that went into Syria, that allowed them 
to get to where they are at.
    So we are dealing with the aftermath of poor foreign 
policy. We need to get the hell out of there as quick as we can 
and let Russia own it.
    They did such a great job in Afghanistan that let them do 
it again, and the Americans need to come back and we need to 
focus on the Western Hemisphere and other things.
    I rest my time.
    Chairman Engel. Thank you.
    Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    I like my colleague from Florida, Mr. Yoho, and I think he 
did articulate a little bit of how I think President Trump is 
looking at this foreign policy and looking at U.S. engagement 
in the Middle East.
    We do not have to guess that the President's wanted to get 
out of Syria for a while. He campaigned on it. Last December, I 
happened to be in the region, met with our commanders in the 
field, met with our special envoy at that time, Brent McGurk. 
You know, returned back home and the following week the 
President issued his famous tweet now that said we are getting 
out of Syria.
    Nobody seemed to know that was coming--nobody in the field. 
The special envoy certainly did not because he wrote it in an 
op-ed and there were some moderating forces that were able to 
slow the President down and walk that back and try to think 
about this strategically.
    So while I was shocked by the decision a few weeks ago, I 
was not surprised by that decision and, if we are going to 
change our foreign policy approach to the Middle East and the 
region, we ought to have a concrete discussion that involves 
this body.
    The fact that we took a big vote last week and the majority 
of Republicans expressed their displeasure with the decision 
and the rapidity of the decisions suggests that this body, both 
the House and Senate, are not in favor.
    I do not disagree that the President has the ability to set 
out and change foreign policy, but there is a real danger if we 
do it rapidly and then if a new Administration comes in and 
tries to reverse it.
    We ought to have a real honest conversation about how we 
approach this region because the reality is what has happened 
in the last couple weeks has strengthened Assad.
    So if our policy is we are not going to do business with 
Assad--we are not going to support a Syrian solution that 
includes Assad, well, we just went in the wrong direction.
    If we do think of Russia as an adversary and we do not want 
to cede influence and control in the Middle East to Russia, 
well, we just went in the opposite direction.
    So our foreign policy in this region is changing. When the 
President says, well, it is not issue--that is 7,000 or 9,000 
miles away, the reality is ISIS is most effective and the 
biggest threat to us here.
    Yes, they are fighting over there and they are committing 
atrocities over there. But they are also very effective in the 
use of propaganda, very effective in the use of identifying 
individuals in Europe, individuals in the United States, 
building a relationship with those folks online and creating 
home-grown terrorism.
    Well, we just ceded that and we just went backward on our 
ability there. So we have to have an honest conversation about 
what our long-term strategy is not with a Democratic president 
or Republican president but long-term because the Middle East 
is not going to get resolved in the next 4 years or the next 8 
years.
    This is a long-term issue and I think every Syrian expert 
and, again, Ambassador Jeffrey, I think you would probably 
agree with this--there is not a easy solution to Syria with the 
number of refugees, with the amount of devastation and with the 
political instability there.
    Would you disagree with me that this is a--if we are 
rethinking foreign policy in the Middle East the Administration 
ought to have this conversation with Congress and we ought to 
all get on the same page?
    Mr. Jeffrey. Absolutely. Decisions taken on the Middle 
East, given its impact on our own security from world energy 
supplies, which still impact us despite our energy situation 
here, to the threat of terrorism and the threat of weapons of 
mass destruction and radical forces on the march affect the 
American people, not just us in the Administration.
    And we cannot do our job without the resources, the legal 
basis and other authorities that we can only get through 
Congress. That is one reason why in a little over 6 months I 
have been up here before this committee three times and have 
talked with many of you on the side. We do believe in this.
    Obviously, as I said, we do not want this to happen. This 
has been a significant setback and that is obvious and clear in 
how we put out the Executive Order describing the impact of 
this Turkish move.
    It is good that we looked into how this decision came--not 
the decision--how this event came about, what we did right, 
what we did wrong. That is what I am trying to do today.
    What I want to underline, though, is two things. One, we 
did not--whatever else we may have done or not done, we did not 
give a green light to this operation, and second, on this one 
issue U.S. policy in Syria and U.S. forces and whether they 
should be in Syria or not, there was almost obsessive reviews, 
consultations, and discussions at every level of the U.S. 
Government. It was not something that was done serendipity----
    Mr. Bera. Was Congress part of that--those discussions?
    Mr. Jeffrey. Certainly, it was part of my discussions up 
here three times.
    Mr. Bera. Well, I would--I would make the case that the 
Administration ought to spend more time with the relevant 
committees and Congress in consultation so that Congress and 
the Administration can be on the same page so that when we are 
projecting to the rest of the world what our foreign policy 
objectives in that region are, we are all speaking from the 
same page.
    Mr. Jeffrey. I understand, sir.
    Chairman Engel. Thank you, and then let me express my 
frustration again that Congress was not a part of that 
discussion.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And, Mr. Ambassador, thank you for being here. I appreciate 
your great service. I do not envy you having to sit in that 
chair right now. But I appreciate you being willing to do it.
    I want to be clear about the green light. I have to take 
issue. I think this absolutely was a green light. Maybe the 
phone call did not say yes, go do it. It was a proverbial green 
light, if we want to parse words.
    I talked to a leader of a European NATO country that told 
me--their foreign minister that told me that--he said Turkey 
may have attacked a hundred of my troops there but, he said, 
they never would have attacked 24 or 25 American troops backed 
by American air power and American security, and we all know 
that is true. I do not think anybody would--really would think 
that had the President put a hard line down that they would 
have attacked.
    This is a moral question to me. A couple of points in want 
to make and then I do have a couple quick questions.
    First off, this idea of war fatigue that is being told over 
and over to us--you know, it is like when your grandma tells 
you, you are tired and need a nap, eventually you feel tired 
and need a nap. That is what is happening right now in the 
political discussion. This country is not war fatigued. War 
fatigue came after World War II when we should have left or 
could have left Europe and left it to those people over there 
5,000 miles away. And, instead, we made a commitment after 
entire towns of young men were lost in World War II to stay and 
stand for American values.
    The military's job is not to be protected only. The 
military's job--when people say we want to protect the military 
as the chief goal, the military's job is to do what 99.9 
percent of Americans do not want to or should never be asked to 
do. These are young men and women that voluntarily sign up to 
do the dirty work of American security to make sure that 
Americans are not hurt.
    And so using military troops as the excuse to reinvigorate 
ISIS, and I do not--look, the President did not intentionally 
reinvigorate ISIS. I want to be clear. But that is not the end 
goal.
    We have the luxury now in this country of not thinking 
about terrorism because we have not been attacked on our soil 
in a big way in 19 years.
    That is not because the intentions of the terrorists 
changed. It is because we have destroyed their ability to do 
it. We hear the forever war caucus that uses cheap slogans and 
sayings, come out and say things like forever wars. By the way, 
this is the exact model they advocated for so we did not have 
to put 150,000 troops in Syria.
    This is it. But the forever war caucus forgets that it is 
not their choice. The terrorists have decided to commit a 
forever war against us, and we can do that in spurts. Every 
time we get hit, 20 years, 20 years later we pull back and get 
hit again, or we can stay on the offense, which is my 
preference.
    So I think this was a major mistake and, Mr. Ambassador, I 
totally respect you are doing your job defending this. But I do 
have a couple of very quick questions on this.
    Specifically, our visibility on ISIS after the pullout--did 
we lose or gain visibility on the location of ISIS and their 
objectives after this?
    Mr. Jeffrey. Again, the pullout has just begun and the 
troops that we pulled out--you saw the convoys and such--were 
not the folks in the field advising, assisting, and 
accompanying----
    Mr. Kinzinger. But they can--but they can get 
intelligence----
    Mr. Jeffrey. Right. Right. Yes. I mean, obviously, there 
is--when you pull out command and control and communications, 
you lose certain things. But I want to underline today we have 
people out there with the SDF pursuing ISIS.
    Mr. Kinzinger. And then, second, is this a moral victory to 
ISIS? I guess if you are a recruiter for the--for ISIS and you 
say, yes, the Caliphate was defeated but now we are going to be 
reinvigorated--this is exactly what was foretold--we would go 
through tough times but we are going to invigorate now, do you 
think our pullout actually helped the recruiting efforts or 
hindered that?
    Mr. Jeffrey. ISIS is pitching this as a victory for them.
    Mr. Kinzinger. And do you think--is it true--did Turkey--
let me ask this. Did Turkey threaten to attack even if we did 
not withdraw our troops?
    Maybe you do not know.
    Mr. Jeffrey. I do.
    Mr. Kinzinger. OK.
    Mr. Jeffrey. And some of it I cannot say here, but 
everything I know including the things I cannot say here is 
absolutely consistent with what I am telling you and from the 
open sources.
    There was never a consideration in the Turkish decision 
chain about U.S. forces being in the way or anything else----
    Mr. Kinzinger. OK. I appreciate that.
    Mr. Jeffrey [continuing]. Because they never felt that they 
were being blocked by the U.S. forces.
    Mr. Kinzinger. I appreciate that. So that--I will take that 
personally. You do not have to say it. I would take that as a 
threat.
    If they are going to move anyway our troops are there. They 
would take that as a threat. They told the President. That, 
first off, is a NATO ally. So as we talk about sanctions here 
and there is discussion about maybe we should not do it, NATO 
basically threatened to overrun U.S. positions.
    That did not change with a cease-fire. And so I look at 
that and I am, like, that is interesting to me. You know, it is 
interesting when we look at what a NATO ally did as we talk 
about, well, they have a cease-fire with Russia now, not with 
us--maybe we could have, like, negotiated something. But 
probably this is bad enough that we never would be a party to 
it. It is an interesting thing to keep in mind as we deal with 
what to do.
    Look, we are in a tough position now. A lot of tough 
decisions. I could not even give you an answer that I think is 
right right now and where to go forward. But I think as this 
body decides what to do in terms of future behavior, I think 
taking a strong stand and saying the United States will not be 
pushed over without consequences is important.
    To both of you, again, deeply respect you being here and 
your hard work. I know you have put in a lot more time in this 
than I could ever even imagine doing myself.
    So God bless you and thank you for your service.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Thank you both for your testimoneys.
    Mr. Jeffrey--Ambassador Jeffrey--could you shed light, a 
little bit more details on how toxic or how conflicted is the 
historical relationship between Turkey and the Kurds?
    Mr. Jeffrey. I could, but, technically, my colleague, Mr. 
Palmer, is responsible for Turkish things and he is dying to 
answer this question.
    Mr. Espaillat. Oh. Good.
    Mr. Palmer. Thank you, Congressman.
    There has been a longstanding confrontation between Turkey 
and the PKK. Over the last four decades, there have been as 
many as 40,000 casualties in Turkey of Turkish civilians, 
Turkish police, Turkish military, as a function of that 
conflict with the PKK, which Turkey considers an existential 
threat.
    The PKK is not the same thing as the Kurds. There is a very 
large Kurdish community in Turkey, much of which is very well 
integrated into Turkish society, considers themselves Turkish 
citizens participating fully in Turkish life.
    Mr. Espaillat. But the Turkish military clearly has a great 
military advantage over the Kurds?
    Mr. Palmer. Congressman, I am not entirely certain what you 
mean by the Kurds in this context. If you are referring to the 
SDF YPG in----
    Mr. Espaillat. Yes, that is correct.
    Mr. Palmer [continuing]. Northeast Syria, yes, that is 
absolutely true. Turkey is a NATO member, has a significant 
military and significant military capabilities.
    Mr. Espaillat. So given this historical conflict between 
the Kurds and Turkey and the fact that the Turkish military has 
this clear advantage, it is safe to say that the Turkish forces 
up there at the border are in clear and imminent danger if 
there were--if they will stay there and face a Turkish 
incursion or military action?
    Mr. Palmer. Congressman, I think there are sensible reasons 
to why the SDF has chosen to withdraw from those positions.
    Mr. Espaillat. And our presence there, obviously, 
contributed to providing some level of safety and security for 
those minority groups that are at a clear military 
disadvantage, correct?
    Mr. Palmer. Congressman, I think that Ambassador Jeffrey's 
testimony was quite clear on this point that there was never 
any commitment that was made on the part of the U.S. military 
or U.S. civilian leadership to have U.S. military in place in 
northeast Syria to defend the SDF YPG from Turkey.
    Mr. Espaillat. But our presence there creates--sends a 
message, if you may, to the Turkish government that we are 
concerned about that region--that is a troubled region of the 
world and that in fact we want some level of peace and 
coherence there, correct?
    Mr. Palmer. We have an ongoing conversation with Turkey and 
Turkish authorities about the issue of northeast Syria, our 
interests in that region, and our concerns about Turkish 
aspirations.
    Mr. Espaillat. What are your--to any of--you are not off 
the hook yet, Ambassador.
    What is your opinion, either one of you, of the potential 
for what many have described as either ethnic cleansing or 
maybe even genocide in the area?
    Mr. Jeffrey. In Syria?
    Mr. Espaillat. In the region. In the conflict region in the 
border.
    Mr. Jeffrey. Oh, in any region.
    Mr. Espaillat. Yes.
    Mr. Jeffrey. In any--in that region, in particular?
    Mr. Espaillat. In that region in particular.
    Mr. Jeffrey. You are always facing the possibility of 
something that approaches ethnic cleansing to essentially get 
borders shaped so that only your kind of people are in those 
borders. This is something we have faced in many, many 
conflict.
    Mr. Espaillat. So the U.S. pullout has basically created a 
vacuum of leadership that has allowed for both the Russians and 
the Syrians to have an upper hand in that region. Is that your 
assessment, Ambassador?
    Mr. Jeffrey. They were not in that region 3 weeks ago. They 
are in that region now because, A, the Turks came in, and B, 
the SDF, our partner, seeing the Turks coming in decided that 
they would form essentially an alliance with the Russians and 
the Syrians to see what kind of deal they could get from them.
    Mr. Espaillat. Just my final question. Do you think that 
the SDF it is still in peril--do you think they are still in 
danger? We still have not defined nor have we projected what is 
going to happen to them in the future.
    Mr. Jeffrey. One of the complications that I have had to 
deal with since taking this job and had to deal with it as a 
foreign policy writer when I was outside of government was we 
never did have a long-term answer to that other than a 
political process that they and everybody else in Syria would 
become a part of.
    That is, we did not have an agenda. We neither said we will 
protect you militarily nor did we say we will endorse your 
particular vision which, as they told us, was an autonomous 
region in that area that we had seen on the map that was yellow 
up there a little bit earlier.
    We did not take a position as a government on either of 
those--well, we took a position not to provide military force 
to support them and we--against the Turks and we did not take a 
position on the long-term solution to their political issues 
within Syria or Syria as a whole other than it has to be a 
democratic process run by the Syrian people, which is the U.N. 
resolution that is relevant here.
    Mr. Espaillat. Thank you both.
    Chairman Engel. Thank you.
    Mrs. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman, and thank our 
witnesses for being here again today.
    I am, along with so many of my colleagues, deeply grieved 
by Turkey's outrageous offensive against the Kurds in northeast 
Syria. I remain worried about the consequences and the long-
term effect Turkey's actions will have on our national security 
and our Kurdish allies who made immense sacrifices to defeat 
the Islamic State.
    Our top priorities must be to contain ISIS so terrorists 
cannot regroup, to prevent a genocide of the Kurds, and conduct 
a safe repositioning to ensure stability in the region.
    I do not want our troops to be in Syria indefinitely. But 
we must act wisely, consult with diplomats and, certainly, 
Defense officials and ensure that we are not creating a bigger 
mess for ourselves and others in the region in the future.
    Ambassador Jeffrey, Turkey wants to clear Kurdish People's 
Protection Units, or YPG fighters, from a swathe of land 
nearly--supposedly 20 miles deep and 270 miles long.
    The YPG leads the pro-democracy Syrian Democratic Forces--
the SDF--which have been the heart of the fight against Syria's 
brutal dictator, Bashar al-Assad.
    Ambassador Jeffrey, how will the evacuation of Kurdish 
forces from Turkey's so-called safe zone affect the SDF and is 
the U.S. continuing to cooperate with SDF forces and in what 
capacity?
    Mr. Jeffrey. First of all, the SDF generally was not 
fighting the Assad regime but, rather, was focused on fighting 
Daesh, which was more than a handful.
    Mrs. Wagner. Yes.
    Mr. Jeffrey. At times there were engagements--fire fights--
between the two. But that was not their primary responsibility.
    In terms of the withdrawal from the zone, there has been 
for a good number of years no real strong ISIS presence in that 
area. Manbij, where, according to the Russian-Turkish 
agreement, the YPG is also to be withdrawn, again, I have big 
questions as to whether that will happen.
    But if it did happen, I would be worried about Manbij 
because there are some ISIS elements there. Where most of the 
ISIS elements are, south of that reservoir along, as you are 
looking at it, the Euphrates down to the Iraqi border, that is 
where the SDF has most of its forces and where we still have 
our own people.
    As I said, we are executing a deliberate and a strong 
withdrawal but we are doing this in a way that allows us to 
consider should we keep some troops on, should we keep----
    Mrs. Wagner. So cooperation is still ongoing with the 
U.S.----
    Mr. Jeffrey. And the cooperation is still ongoing as we 
work our way through what the longer-term situation will be.
    Mrs. Wagner. And I know that we have touched on this a bit 
with previous questioners, but hours before the U.S.-brokered 
cease-fire expired, we know now that Turkish President Erdogan 
held talks with Vladimir Putin.
    Ambassador Jeffrey, what do we know about the content and 
outcome of the talks and how are we engaging with Turkey to 
prevent Russia from increasing and improving its long-term 
operating ability in Syria?
    Mr. Jeffrey. The agreement calls for a Russian military 
police and Syrian--that is, Assad's border police--to move into 
those areas along that strip that you described to the east and 
west of where we worked the cease-fire deal with the Turks--the 
central 130 kilometers--to, supposedly, negotiate a withdrawal 
of the YPG, not a military action but a withdrawal of the YPG, 
and then to allow joint Turkish-Russian patrols 10 kilometers 
deep.
    This is somewhat similar to what we negotiated with the 
Turks back in August that they then, basically, reneged on when 
they launched their offensive.
    Frankly, our deal was a better deal for the Russian--for 
the Turks than the Russian one is, and so I am very cynical 
about--sceptical, rather, about what the Turks are going to get 
out of this deal.
    Mrs. Wagner. And so we do believe that this agreement, so 
to speak, has done more to increase Russia's long-term ability 
to operate in Syria. Would that be a fair assessment?
    Mr. Jeffrey. Anything that allows Russian forces or Assad 
to move into other areas is a problem for us in trying to find 
a decent and democratic solution to the overall Syrian crisis.
    Mrs. Wagner. Thank you. We thank you both for your service.
    And I yield back.
    Chairman Engel. Thank you.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    Gentlemen, I am so deeply distressed about this situation, 
first and foremost, for our allies, the Kurds, and for the 
Syrian people, but equally so for our troops who have 
essentially had to endure the humiliation of abandoning their 
friends and their comrades and then being pelted with rocks and 
bottles as they left.
    It, literally, makes me cry to imagine. My family has a 
long history of military service. My father was a career Air 
Force pilot. I lost an uncle in Vietnam.
    Multiple other family members have served, and just the 
thought of those troops who have served this country being put 
in that position of what, as I said, is literally humiliation 
is just so wrong, and I do put this squarely at the feet of the 
Administration in terms of its actions.
    I want to ask you this, Ambassador Jeffrey. In your 
testimony, you noted that President Trump told President 
Erdogan that U.S. armed forces would not support or be involved 
in a Turkish operation in northern Syria and that the United 
States does not endorse such actions but that we would not put 
U.S. forces in harm's way.
    Is there any reason to think that if the United States had 
maintained its military presence in Syria, if we had not 
abruptly withdrawn forces from the region that Turkey would 
still have felt emboldened to launch military operations there?
    Mr. Jeffrey. That is a very good question because it allows 
me to come at this from a different direction.
    The Turkish troops crossed over the border before the 
President went public with the withdrawal of all of our forces 
from northeast Syria.
    That was something that he was in the process of thinking 
through. He had been in the process of thinking through that 
since the fall of--the spring of 2018 and that precipitated the 
withdrawal.
    The Turks did not base going across on either the 
withdrawal or the those two small outposts which were in the 
area or the decision to withdraw the forces from all of 
northeast Syria, almost all of whom were nowhere near where the 
Turks were.
    In fact, what we did in response to your colleague's 
question was we gave the Turks the coordinates where all of our 
forces were and the Turks very carefully avoided hitting them.
    Ms. Wild. Right. So let me--I am going to reclaim my time 
here, because then that leads me to this question. If it was an 
ongoing process that the Administration was so aware of, why 
then did our closest allies not get consulted about this 
decision?
    Alarmingly, President Macron of France has publicly said 
that he found out at the decision on Twitter and the U.K. 
government reportedly was not consulted about the decision 
either, and my question to you is if we do not consult our 
closest allies on decisions that directly affect their troops 
as well, how do we expect them to trust us in the future?
    Mr. Jeffrey. It is a good point. It is basic diplomatic 
hygiene to consult with allies. We did not do that in this 
case. Frankly, this is not the only case.
    This is not--and not with this Administration but in every 
Administration I have been with it is something that our allies 
criticize us for fairly frequently, unfortunately, and it is 
not a good thing.
    Ms. Wild. Well, were there any foreign leaders that were 
consulted as part of President Trump's process in making the 
decision to withdraw U.S. forces? Any foreign leaders at all 
other than Erdogan?
    Mr. Jeffrey. Oh, absolutely, because--and I think, 
Congresswoman, you put your finger on it when you used the word 
process. It is not only OK, it is necessary on something like 
this to look at the decision, why it was made, whether it was a 
good thing.
    But I can assure you this was not one that the President 
had never thought about it and then suddenly on the 6th of 
October said, oh, troops, Syria--get them out.
    This is something that had been one of the major debates 
within the Administration that the President had talked about 
at various levels and with other foreign leaders and they had 
talked about with him, including replacing American troops with 
coalition troops from France and other places.
    Ms. Wild. But talking about it as some future thing and 
actually doing it without consulting with those foreign leaders 
or at least advising them in advance so they do not learn about 
it on Twitter is really, really bad for diplomatic 
relationships with our allies, is not it? We can agree on that?
    Mr. Jeffrey. Absolutely, and I just conceded that point 2 
minutes ago. What I am trying to say is the President had the 
benefit of the views of Macron, of the various Prime Ministers 
from the U.K. and other countries in the back and forth for the 
18 months before we pulled out.
    Ms. Wild. Then all the more--all the more reason if they 
had been involved in an ongoing discussion that they should 
have been told and not learned of this on Twitter, right?
    Mr. Jeffrey. I am agreeing with you, for the third time.
    Ms. Wild. Thank you. Thank you.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Mast.
    Mr. Mast. Thank you, Mr. Chairman.
    Let's just start with the title of this hearing. I do not 
know what snide staffer put the title on it, but it says 
``Betrayal of Our Syrian Kurdish Partners,'' and I think it 
requires a little bit of self-reflection because we all have 
our lanes.
    The military has their lanes. State has their lane. Foreign 
Affairs Committee in the House of Representatives has their 
lane. So let's talk about that word betrayal and say, in my 
opinion, betrayal is to our service members--Army, Navy, 
Marines, Air Force, Coast Guard--who, what do they do? They 
volunteer heroically to stand in front of all threats to our 
Nation and anybody in our Nation, as my--as my colleague, Adam 
spoke about so eloquently earlier.
    But in my opinion, the betrayal is is that they are not 
told the totality of their mission. When was the last time that 
our service members were given the totality of their mission?
    The betrayal is to send our troops off with marching orders 
but with no final destination for those marching orders. Or to 
give them a mission that never reaches mission accomplished.
    So when--and I will ask this question rhetorically but more 
specifically in a little bit--when was the last time that this 
body authorized or authored an AUMF?
    That is the lane--that is one of the lanes of this 
committee. When is the last time we did this? I am not talking 
about what goes on in the NDAA and going out there and talking 
about different things that we might do through DOD.
    When is the last time this body went out there and 
undertook those actions? When has this body speaking about 
support for the Kurds, expressed its sense of support for an 
independent Kurdish State, if that is something we support--
something that I wholeheartedly support that I would love to 
see?
    When was the last time that this body or your staffs went 
to work to actually write an AUMF even though it may not have 
gone through? When were the last times these things occurred?
    When did this body author the left and right limits to what 
our engagement should be in Syria? When did that occur? When 
did we go out there and do this?
    And so since the withdrawal or even prior to the 
announcement of this withdrawal, who here has gone out there 
and proposed some sort of AUMF for any action against Turkey if 
our troops come in conflict should one of our soldiers be 
attacked by somebody from Turkey?
    When did that occur in this body in our lane, outlining 
that authority, not just--as I said, not just to provide 
assistance or to counter ISIS? When did that occur?
    So my point here in all of this is this. If you want to 
support continued action in Syria absolutely, go out there and 
make your case for what it is that you want to see.
    But task your staffs. Use your own efforts to go out there 
and author those left and right limits. Give them their 
marching orders. Let them know where we reach mission 
accomplished. Author those things. Take the time to do what is 
absolutely in our lane as members of the Foreign Affairs 
Committee.
    So if you do not want to betray our service members who we 
should have no greater commitment to, then have the stones to 
specifically outline when we reach mission accomplished.
    And if you are worried about the signals that might be 
sent, then send a clear signal from Congress about exactly what 
it is that we authorize against Turkey and Erdogan or against 
Assad, not just through State but specifically militarily.
    And so my one question that I have is this. It is not to 
any of you. Mr. Chairman, will this body, as some people have 
expressed support for doing--it has not occurred on either side 
of the aisle--this knife cuts both ways--will this body work 
toward an AUMF?
    Chairman Engel. Mr. Mast, I think that the Congress, 
frankly, has been negligent in its time for several years under 
administrations, both Democratic and Republican, and I think it 
is the AUMF which is now being used as a catch-all to basically 
give any administration any power that they want to do anything 
they want militarily is something that needs to go by the 
wayside, and I would hope that the Congress--it was not done 
when Republicans were in the majority and it has not been done 
since Democrats were in the majority because, quite frankly, 
you know as well as I do it is very difficult to get consensus 
to find that middle that everybody----
    Mr. Mast. Mr. Chairman, I am going to reclaim----
    Chairman Engel. Go ahead.
    Mr. Mast [continuing]. And just ask it again. I do want to 
give you time to answer. I respect you.
    Chairman Engel. No, I----
    Mr. Mast. Will we in this committee work to authorize, work 
toward an AUMF? I agree with you. That knife cuts both ways, 
Republicans and Democrats.
    Chairman Engel. Mr. Mast, if you would--if you would like 
to work with us on AUMF I would be delighted to work with you.
    Mr. Mast. One hundred percent, sir.
    Chairman Engel. OK. Thank you.
    Mr. Mast. I yield back.
    Chairman Engel. Mr. Sherman.
    Mr. Sherman. I would like to chime in on the--Mr. Mast's 
comments and, obviously, his patriotism is demonstrated to us 
every day.
    We passed an AUMF that authorized going after al-Qaida. 
ISIS is an offshoot of al-Qaida. My colleague, Mr. Schiff, has 
written an editorial saying that AUMF does not apply and I have 
written one say that it does.
    But I, for one, would not vote for an AUMF saying America 
should go to war with Turkey over the control of a 30-kilometer 
strip across Syria.
    the President came to this country and said we were 
voluntarily withdrawing because that was his philosophical 
belief. What may have actually happened is the Turks threatened 
us with war and we blinked, and rather than tell the American 
people the truth, which is, as powerful as we are, we are not 
going to go to war against Turkey for this strip of land. As 
loyal as we are to the Kurds, not that loyal. Instead, he 
packages it as if this is some great machismo exercise in 
withdrawal.
    On October 11th, 2019, Turkey launched multiple artillery 
rounds near the U.S. base in Syria, effectively, bracketing the 
base.
    Ambassador Jeffrey, if we had left our troops there would 
Turkey have been willing to kill them to achieve its goals?
    Mr. Jeffrey. Absolutely not, and Turkey never thought that 
those--as, again, the troops we are talking about in the area 
that the Turks were even contemplating moving into were three, 
roughly, 12-soldier outposts along the Turkish border.
    The Turks were--never considered these to be a threat. They 
never thought that they had to get America to withdraw them. It 
just was not a calculation. All they wanted to do was to know 
their grid coordinates for those and any other troops----
    Mr. Sherman. You are saying if we had left our troops there 
Turkey still would have displaced the Kurds from this strip; 
they just would have bypassed our forces?
    Mr. Jeffrey. Oh, absolutely. In fact, we did have them 
bypass our forces----
    Mr. Sherman. And then--so our forces would not have helped 
the Kurds under that scenario. Turkey would achieve its 
objectives and but at least we would not have withdrawn. Is 
there any----
    Mr. Jeffrey. Exactly.
    Mr. Sherman [continuing]. Is there any explanation as to 
why American troops are withdrawing south of the 30-kilometer 
strip?
    Mr. Jeffrey. the President was faced with a--obviously, a 
very fluid situation. As with every president that I have 
worked with, the first concern in force protection.
    Mr. Sherman. Mm-hmm.
    Mr. Jeffrey. A large part of our overall force was either 
just to the east or just to the west of the Euphrates in the 
Kobane Manbij area and that was going to be cutoff by Turkish 
forces, the road leading to Iraq--Turkish forces, Turkish-
supported and very ill-disciplined opposition militias, ISIS 
elements possibly.
    Mr. Sherman. I need to go on to another question.
    We did not break Syria. We did massively reduce the amount 
of chemical weapons that would be used in that conflict.
    Even so, even though we did not break it, someday we will 
be called upon to help fix it. Should the U.S. condition 
American rebuilding assistance on removal of Iranian military 
and proxy--Iranian proxy military from Syria?
    Mr. Jeffrey. That is one but on the only condition for us 
providing any stabilization assistance.
    Mr. Sherman. Came here 23 years ago. One of the things I 
thought was morally incumbent upon Congress was to recognize 
the first genocide of the 20th century--the Armenian genocide.
    We were told, but Turkey's a great ally of the United 
States; do not put that at risk. How is that working out for 
us?
    Mr. Palmer. If I may, Ambassador.
    Mr. Sherman. Mr. Palmer.
    Mr. Palmer. Yes. Thank you for that question, Congressman.
    Mr. Sherman. Does the dishonoring of America and the 
undercutting of our reputation for speaking the truth, was that 
worth it? Did we get some great help, alliance, love, and 
loyalty from Erdogan?
    Mr. Palmer. Congressman, I do not think that was ever the 
calculus, and I do appreciate what you are saying about the 
talk about the----
    Mr. Sherman. Well, no, no--yes. I mean, the historical 
facts are clear. We chose not to formally recognize them 
because many thought that Turkey would behave well if we did 
not. How is that working out?
    Mr. Palmer. Let me, if I may, Congressman, begin by 
underscoring our view that the massacre of 1.5 million 
Armenians in 1915 was one of the great crimes of the 20th 
century, and that is not in dispute.
    When we look at the relationship with Turkey, I am 
reluctant to attach the word great to that relationship but it 
certainly is consequential, and I think what it is that you 
have heard from administration after administration----
    Mr. Sherman. Well, our relationship with Hong Kong is 
consequential. We do not fear to pass just 2 weeks ago three 
measures that Beijing really hated because----
    Mr. Costa. Would the gentleman yield?
    Mr. Sherman. Yes.
    Mr. Costa. Just in context of the question you asked, I am 
wondering how much the relationship has changed between Turkey 
and the European Union when years ago they went on record of 
recognizing the Armenian genocide.
    Mr. Palmer. The relationship between Turkey and the 
European Union is fraught and complicated. Turkey----
    Mr. Costa. And so is ours.
    Mr. Palmer. That is correct, Congressman. Yes.
    Mr. Costa. OK.
    Mr. Sherman. I would point out that immediately after 
recognizing the genocide in the next several years, French 
exports to Turkey tripled in spite of the fact that the one 
consequence Ankara said France would face was a diminution in 
such exports.
    So we have cowered. We have dishonored ourselves in front 
of a paper tiger that the French were--had the courage to 
confront and we have achieved nothing in terms of being able to 
call Turkey a great ally.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Watkins.
    Mr. Watkins. Thank you, and thank you for being here.
    I attempt to approach these dealings emotionlessly but it 
is tough. I was embedded with the Turkish Peshmerga in Iraq for 
many years and have so much respect for the challenges they 
face.
    Peshmerga, of course, means those who face death, and they 
do, and helping to train them, working with them, is something 
that I carry with me during these dealings.
    So I know that Iraq is not center mass on the conversations 
today. Do you have any comments on the Peshmerga and as they 
act as a divide between Syria, Iran, and others? Do you have 
any comments in that regard?
    Mr. Jeffrey. I have also worked with their political 
leadership since the late 1990's very extensively including 3 
years in Iraq.
    Mr. Watkins. The Barzanis?
    Mr. Jeffrey. Yes.
    Mr. Watkins. Or Talibanis?
    Mr. Jeffrey. All of them.
    Mr. Watkins. All of them.
    Mr. Jeffrey. And we have the utmost respect for them. They 
have found a--first of all, a very--they are at peace. Their 
economy is in pretty good shape. They took in hundreds and 
hundreds of thousands of refugees from ISIS and they treated 
them well.
    They have a good relationship with Turkey. They are a 
constituent part of the Iraqi body politic. It is a good news 
story in part because they were able to defend themselves 
effectively with our help, Congressman.
    Mr. Watkins. Thanks.
    the President just held a press conference and he announced 
permanent cease-fire and the end of sanctions now. Even in the 
press conference he admitted that permanent is a strong word to 
use.
    I want you to just comment on the confidence that you have 
in ending sanctions and the confidence you might have in a 
permanent cease-fire.
    Mr. Jeffrey. I am chuckling about the word permanent 
because we looked at the statement and said--I actually said it 
is OK because it was not in the agreement with the Turks. But 
it does describe the way the Turks presented their decision to 
stop Operation Peace Spring last night to us. So it is OK.
    It is as permanent as anything else and we differentiate 
that between the 5-day pause that we had before with the cease-
fire. I mean, we are using all these semantic words because 
that is what you have to do in diplomacy.
    But in the language of normal people it is a relatively 
permanent cease-fire. And in terms of the Executive Order, we 
have lifted those sanctions that were imposed on the 17th of 
October.
    But the Executive Order that was passed that day remains in 
effect and that Executive Order is aimed at anybody who 
challenges the peace, stability, security, or the territorial 
integrity of Syria or the political process to try to find an 
outcome of the civil war.
    That is a very, very powerful administration tool and this 
Administration is ready to use it again, be it against Turkey, 
be it against others, if they violate the provisions of the 
Executive Order. So we are happy we have it.
    Mr. Watkins. That is great. And I just want to say again 
how much I hold the Kurdish people in such a high regard. It is 
very personal to me as a veteran and as a prior defense 
contractor who worked in Kurdistan--the Kurdish northern region 
of Iraq.
    I lived in Erbil for stretched of time in my career and 
many of us are dedicated to doing everything we can to support 
the Kurdish people.
    So thank you for being here. I appreciate your time and 
your insight. I yield back.
    Mr. Cicilline [presiding]. The gentleman yields back.
    I now recognize the gentleman from California, Mr. Lieu, 
for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    Thank you, Ambassador Jeffrey and Mr. Palmer, for being 
here and for your public service. None of what I say with my 
questions are meant to impugn you. I understand you are simply 
trying to do the best, given Donald Trump's disastrous decision 
in Syria.
    I do not oppose withdrawing troops from Syria. I oppose how 
it was done. Because of the impulsive decision of the 
President, with no planning and coordination, has resulted in 
some ISIS terrorists being set free and Turkish forces 
slaughtering our allies, the Kurds, and it is emboldened Iran 
and Russia.
    Last week, Donald Trump tweeted that one reason he did 
this--in fact, the primary reason--is to, quote--to basically 
bring, quote, ``our great soldiers and military home,'' 
unquote.
    Our troops in Syria actually did not go home. They went to 
western Iraq. Is that not correct?
    Mr. Jeffrey. That is still under consideration, 
Congressman. That is, in terms of the withdrawal, the one who 
came out by road, obviously, went to western Iraq. There was no 
place else to go.
    And what their status will be, whether they will--some of 
them will stay in Iraq, some of them will go home, some of them 
may be used in other areas--right now, Secretary Esper is 
working that with the Iraqi authorities.
    Mr. Lieu. Some might also stay in Syria. Is that not 
correct?
    Mr. Jeffrey. Well, first of all, we will have some great 
soldiers remaining in al-Tanf to the south and that is very 
fortunate, from my standpoint, of the overall political 
process, and people are reviewing, as I mentioned earlier, at 
the highest levels of the government exactly how we are going 
to do this withdrawal and if there is going to be any residual 
force.
    You will remember last time when the President announced a 
withdrawal in December 2018. In February 2019, he said, I am 
going to still keep a residual force. So that discussion is 
back and forth. I do not know what he will finally decide. But 
it is a very actively debated issue right now.
    Mr. Lieu. Thank you.
    So we were given images of Russian forces taking over at 
least one U.S. military facility. Is that true?
    Mr. Jeffrey. That is true.
    Mr. Lieu. OK. There was also public reporting that the U.S. 
military had to bomb some of our own facilities such as a 
weapons depot to prevent it from getting into enemy hands. Is 
that true?
    Mr. Jeffrey. That is true.
    Mr. Lieu. OK. I just want to say both those incidents are 
an embarrassment to the United States. I served in active duty 
in the United States military. I never thought that that would 
happen.
    All right. So I would like to talk a little bit now about 
the President's conflicts of interest in Turkey. I have an 
article I would like to submit for the record from the Daily 
Beast. This is dated April 13th, 2017. The title of it is 
``Donald Trump's Huge Conflict of Interest in Turkey.'' Talks 
about two Trump Towers in Turkey receiving between $1 million 
and $5 million since the beginning of 2015.
    So if we could put that in the record, Mr. Chair.
    Mr. Cicilline. Without objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lieu. Do you know if Donald Trump's business interests 
in Turkey was a factor in his decision to withdraw the troops 
from Syria?
    Mr. Jeffrey. I am sure that that was not part of the 
decision tree.
    Mr. Lieu. How do you know it was not part of his 
decisionmaking?
    Mr. Jeffrey. I am basically sure as far as I can say.
    Mr. Lieu. On what basis do you have?
    Mr. Jeffrey. On the basis of having been involved not with 
the President himself but with his top advisors on all the pros 
and cons of this question of keeping troops on for the last--
for the last--since I have had the job 14 months.
    Mr. Lieu. You were not on that phone call with the 
President of Turkey, were you?
    Mr. Jeffrey. No, I was not.
    Mr. Lieu. You do not know what was said in that phone call?
    Mr. Jeffrey. I have a pretty good idea.
    Mr. Lieu. Do you know if any business interests were 
discussed?
    Mr. Jeffrey. I did not hear of any business interests being 
discussed.
    Mr. Lieu. OK. And you do not know the President's--what is 
going on in his mind, right? You have no way of knowing if 
business interests had a factor in this at all, do you?
    Mr. Jeffrey. No. But as a government official, I can just 
explain to you as best I can how these policy processes take--
--
    Mr. Lieu. Well, let me ask you--do you think any business 
interests factored into the President's initial decision to 
have a G-7 at Doral?
    Mr. Jeffrey. Once again, in terms of the decisions on 
Syria, I cannot say anything about any business decision ever 
coming up. I have never heard of one. I have never heard even 
the slightest rumour of one within----
    Mr. Lieu. But you do not know? Were you informed of this 
decision to withdraw from Syria before the President did it 
impulsively after that phone call? Was there any prior 
coordination? You were surprised, were you not, at what 
happened?
    Mr. Jeffrey. We were--we were informed--we were informed 
and consulted on the President's weighing of the options to 
withdraw forces almost daily for 18 months before this decision 
was taken.
    Mr. Lieu. So let me just say this. It should never happen 
that American people and Members of Congress even have to ask 
that question and you have no way of knowing, sir.
    Respectfully yield back.
    Mr. Cicilline. The gentleman yields back.
    I now recognize Mr. Burchett, the gentleman from Tennessee, 
for 5 minutes.
    Mr. Burchett. Thank you, Mr. Chairman. Thank you all for 
being here.
    Sir, how do you--how do we ensure that the situation on the 
border between northeast Syria and Turkey is not abused by Iran 
to expand its presence in the country and solidify a land bring 
between Tehran and Beirut?
    Mr. Jeffrey. That is one of our concerns, Congressman. It 
is one reason why the President decided to keep our U.S. forces 
on the ground in al-Tanf, which is astride, in part, because 
that is the reason they are there to continue the operations 
against ISIS. But it also sits astride the main east-west road 
between Tehran and Beirut. So that is the first thing we will 
do.
    Second, we are working very closely with the Turks on this 
cease-fire that has just been announced by the White House and 
that we negotiated now 6 days ago.
    And while we do not deal with the regime, we do deal with 
the Russians, as I said earlier sometimes successfully, 
sometimes unsuccessfully in Syria. But we have a very extensive 
both military and--a military deconfliction, because that is 
the only word they can use, and political exchange on Syrian 
issues.
    And, finally, we have every intention if things work out to 
continue our relationship with the SDF, which still controls 
much of the terrain in the northeast.
    Mr. Burchett. All right.
    When you look at everything Turkey has been up to recently 
like the S-400 purchases from Russia, Halkbank helping Iran 
evade sanctions and firing on our troops, just to name a few, 
can we even trust or rely on Turkey as an ally now?
    Mr. Palmer. The relationship between the United States and 
Turkey is complicated and multidimensional, Congressman, and we 
are going through a particularly different patch right now.
    You have identified some of the key challenges in that 
relationship. Our goal is to work through this problem set, 
come out the other side in a position that is stronger, that is 
more stable, that is more productive and positive than it is 
currently and we are committed to working through all of those 
issues and building over time to strengthen and improve the 
quality of the U.S.-Turkey alliance.
    Mr. Burchett. And without our U.S. troops in northeast 
Syria, does anyone have the capacity to make sure that ISIS 
does not resurface?
    Mr. Jeffrey. Again, as I tried to say earlier, I cannot 
convince this body or any other body that we had troops there 
for no reason. We, obviously, had troops there for a mission. 
The mission was defeating ISIS.
    So if you remove those troops before that mission is 
complete, then you have a problem, and we do have a problem 
right now. We are working our way through it.
    We are looking at various options of how we will maintain a 
relationship with the SDF, what kind of military coalition, 
because we are one of 80 nations and organizations--what kind 
of coalition presence, if any, will be in the northeast, how we 
can do this by other means.
    But, of course, it would be nonsensical for me to tell you 
all that it makes no difference whether we had troops there now 
when we had troops there 3 weeks ago risking their lives to 
carry out a mission.
    So, of course, by taking those troops out before that 
mission is completely and decisively done means that we have to 
deal with the consequences of that, and we are doing that right 
now.
    Mr. Burchett. Thank you, Mr. Chairman.
    I yield back the remainder of my time.
    Mr. Cicilline. The gentleman yields back.
    I now recognize the distinguished gentleman from Minnesota, 
Mr. Phillips, for 5 minutes.
    Mr. Phillips. Thank you, Mr. Chairman.
    And I have to start by saying that I share my colleagues' 
grave concerns--dismay, disgust, and even heartbreak over our 
country's recent actions.
    The world notices how we treat our allies and I believe 
that we have compromised our ability to affect our foreign 
policy over the years to come because of it.
    We have heard from a lot of people in my district, a lot of 
warriors. One of them wrote, quote, ``At the core of this issue 
are our American values: trust, commitment, sanctity of human 
life, human dignity. When we make commitments, especially when 
we make them with the vulnerable with the promise that we will 
prevent harm, we should keep those commitments,'' end quote.
    I am afraid this is an example that will be used at West 
Point and war colleges--I know you are a graduate, Mr. Palmer--
across the country as an example of how not to conduct ethical 
and strategic decisionmaking.
    With that in mind, Ambassador Jeffrey, in your opening 
remarks in your testimony you shared our strategy, our foreign 
policy, toward Syria.
    Do you believe that what you shared in your testimony is 
congruent with the actions of President Trump in recent weeks?
    Mr. Jeffrey. Considering the fact that President Trump, a 
few minutes ago, announced that we would be keeping some troops 
on in northeast Syria it is a bit more congruent now than it 
was a few minutes ago.
    Mr. Phillips. OK. So it was incongruent until a few minutes 
ago?
    Mr. Jeffrey. I actually did not say that. I said it is even 
more congruent now.
    Mr. Phillips. Oh, even more congruent now.
    Mr. Palmer, how do you feel? Congruent or incongruent?
    Mr. Palmer. I am going to go with congruent, Congressman.
    Mr. Phillips. Interesting. Do you believe by--this is a 
question back to both of you--do you believe our country, the 
United States of America, is better off now than we were 3 
weeks ago?
    Mr. Jeffrey. Again, I do not want to leave the impression 
here, as a representative of the Administration--others of the 
Administration--that we did not think that Turkey's coming 
across the border on the 8th, 9th, of October was anything 
other than a tragic disaster for the situation in northeast 
Syria.
    That is why this Administration, beginning with the 
President, immediately wrote a letter to President Erdogan 
passing on our leader of the SDF, General Mazloum's, request 
for a cease-fire and political talks.
    That is why the President then had a conversation with or 
he passed on a message to President Erdogan that I delivered a 
couple of days later and then dispatched the vice president, 
the national security advisor, and the Secretary of State all 
out to--I will not say impose but to demand a cease-fire along 
with very strong sanctions that we immediately rolled out right 
after the incursion began.
    So yes, this was a bad thing and we took very energetic 
efforts to try to contain it and, to the extent we can, roll it 
back.
    Mr. Phillips. Sir with all due respect, I concur it was a 
disaster. But it is hard to say it was an unanticipated 
disaster. Would you say so?
    Mr. Jeffrey. It was always, as the President said, long-
planned Turkish incursion. The Turks always had that option. We 
did not have a military option. We took the decision not to 
have a military option and I think that was--I absolutely think 
that was the correct decision.
    But we did have a policy decision to use every means short 
of the military to deter the Turks, to convince the Turks not 
to come in and we thought that we had succeeded. We had done a 
deal with them where we were doing joint patrols, joint 
aviation missions over the northeast. We believe that that and 
we know that that met their security concerns.
    Mr. Phillips. So you are----
    Mr. Jeffrey. They then took a decision to come in on their 
own.
    Mr. Phillips. So you are testifying that we used every tool 
in our toolbox to the best of our abilities to prevent what we 
are seeing happen right now?
    Mr. Jeffrey. Every one but military and also we did not 
succeed.
    Mr. Phillips. OK. Let me--and my last question is relative 
to Turkey's end game under Erdogan. I would love both of your 
perspectives on what you believe their long-term strategy is in 
the region, especially absent our participation.
    Mr. Jeffrey. In Syria, it is to ensure--and it is 
relatively congruent, to use that word, with ours, other than 
the problem with the northeast--it is basically to put pressure 
on the Assad regime because they--Turkey sees the Assad regime 
as a threat to them, to limit to the extent they can Russia's 
influence and to deter Iran operating to the south of Turkey.
    So these are all, as I said, congruent with our interests.
    Mr. Phillips. Mr. Palmer.
    Mr. Palmer. More broadly, Congressman, Turkey's goals are 
to play a leadership role in the region and to ensure Turkish 
security including, in particular, through the comprehensive 
defeat of the PKK.
    Mr. Phillips. All right. My time is up and I yield back.
    Thank you.
    Mr. Cicilline. I thank the gentleman for yielding back.
    I now recognize the gentleman from Texas, Mr. Allred, for 5 
minutes.
    Mr. Allred. Thank you, Mr. Chairman.
    I want to thank Chairman Engel and Mr. McCaul, our ranking 
member, for holding this hearing.
    Ambassador Jeffrey, I want to thank you for your 
distinguished service in both Democratic and Republican 
administrations, and also to--the same thing to you, Mr. 
Palmer.
    I do not envy you, though, for having to be here today 
defending what I consider to be the indefensible. This 
Administration has brought this committee and this House 
together on a bipartisan way in a fashion that few issues have.
    Last week, we, of course, voted overwhelmingly to 
disapprove of these actions and my colleagues have been ably 
laying out how disastrous this decision has been.
    But I want to talk about the U.S. strategic objectives and 
national security interests that you talk about in your joint 
statement.
    In your written testimony you note that the U.S.'s 
strategic objectives and national security interests in Syria 
remain, one, the enduring the defeat of ISIS and al-Qaida and 
their affiliates in Syria; two, the reduction and expulsion of 
Iranian malign influence; and three, resolution of the Syrian 
civil war on terms that are favorable to the United States and 
our allies.
    I want to ask you through each of these, one, two, and 
three, beginning with the enduring defeat of ISIS and al-Qaeda 
whether or not this action has furthered that strategic 
national security interests for us.
    Mr. Jeffrey. Congressman, first of all, it is not a 
difficult task. It is an honor to be here. It is an honor to 
serve my country. It is an honor to serve this Administration 
which I think, overall, is doing its very best to secure 
America throughout the world.
    We are talking about a situation that has not turned out 
well for us in the past few weeks in how we are working our way 
through it. But I am delighted to be here sharing my views and 
the Administration's views with you and getting your views 
back.
    In terms of all three, the one that is hit the hardest by 
what has happened, of course, is the defeat of ISIS because 
that was the purpose of our forces in the northeast. But again, 
the President's decision to keep forces on and he talked to 
General Mazloum this morning.
    General Mazloum has just tweeted that he thanks the 
President for his tireless efforts that stopped the brutal 
Turkish attack and expressed willingness to continue working 
with us.
    So, boy, do we have a complex situation. It was pretty easy 
before. We had us, the SDF, and ISIS on the run in the 
northeast. Now we have still all three of those and about six 
more actors.
    How are we going to sort our way through this? I will get 
to work as soon as I leave here.
    Mr. Allred. Yes. Well, I want to comment on that. I saw the 
statement from the general. I think that when someone relies on 
us for their existence and we allow them to be attacked by an 
ally, and then we stop the attack, them thanking us for that 
action probably does not ring as true.
    I think we saw with the throwing of objects at our troops 
when they were trying to pull out by some of the Kurds how they 
feel about it.
    But let me ask another followup question on that because 
according to multiple U.S. Defense and military officials 
counter ISIS operations have essentially stopped because SDF 
forces have reoriented to confront the Turkish invasion.
    Do you think that is going to--are they going to reengage 
now with this cease-fire? What is our approach there to work 
with them and what are the prospects of that work?
    Mr. Jeffrey. Much of the SDF forces remained along the 
Euphrates where the remaining ISIS threat is along with most of 
our front line advisory teams and that is still continuing.
    New operations and such--whenever you get some--a dramatic 
shift in a military situation and an area of operations, 
believe me, nobody's got the time to do new operations.
    But, typically, people have standing orders to continue 
doing what they are doing and that is what happened. The 
fighting with the Turks was over so quickly--it stopped now 6 
days ago--that a lot of the forces that were not--were not 
basically pulled to the north, and right now we are seeing what 
will happen to the forces that are in the areas in the 
northeast.
    In the northeast, there was very little action against ISIS 
because there were no ISIS forces to speak of there.
    Mr. Allred. OK. So is it your assessment----
    Mr. Jeffrey. In that strip along the northeast. Of course, 
they were further south.
    Mr. Allred. All right. So is it your assessment that this 
will--what is your assessment, I should say, about how this 
will impact ISIS's ability to reconstitute?
    Mr. Jeffrey. First of all, 99 percent of the ISIS detainees 
are still detained as I speak. Some hundred-plus were able to 
escape and we are watching that closely.
    Second, based upon how we work with the SDF, I just gave 
you the statement that was encouraging from General Mazloum. I 
reiterated the President's commitment to keep some forces on.
    If we do that and if we maintain air, I believe very 
strongly that we can continue an effective de-ISIS campaign and 
we can continue to pursue the other two goals that you asked 
whether they were impacted as well.
    Mr. Allred. Thank you.
    I yield back, Mr. Chairman.
    Mr. Cicilline. I thank the gentleman for yielding back.
    I now recognize the gentleman from Michigan, Mr. Levin, for 
5 minutes.
    Mr. Levin. Thank you, Mr. Chairman.
    Thanks, both of you, for coming in and, Ambassador Jeffrey, 
it is good to see you again. I am going to ask you some 
questions.
    I want to know if it is correct that--in your estimation 
that Turkey's President Erdogan wants to expand Turkish control 
over a section of northern Syria.
    Mr. Jeffrey. Absolutely not. As I said yesterday in the 
Senate, I differentiate between Turkey and Iran. Turkey is not 
an expansionist country. Turkey is----
    Mr. Levin. So they are not trying to go into the section 
of--that is been delineated and we all see it and all the--
where they want to control and move people out of it?
    Mr. Jeffrey. Turkey is trying to ensure that it does not 
face a long-term threat from the PKK in northeastern Syria 
analogous to what it faces----
    Mr. Levin. Northeastern Syria--that is in another country 
than Turkey?
    Mr. Jeffrey. Right, just like the threat it faces out of 
northern Iraq, just like the threat that Israel faces from 
Hezbollah in southern Lebanon. That is the Turkish motivation. 
It is not to take territory.
    Mr. Levin. Well, so is it fair to say that the goal of 
Turkey's invasion into Syria is to remove Kurdish people--not 
just fighters, but Kurdish civilians from that section of Syria 
that he is invading and he is using violence to force them out 
of that geographic area? Military force, arms, violence.
    Mr. Jeffrey. One, we have written commitments from the 
Turks that they would not do that. Two, given that there's 
somewhere between 15 and 20 percent of the Turkish population 
is Kurdish and many of them serve and fight in the Turkish 
army, I would not assume automatically that they are out to do 
ethnic cleansing. What they are out to do is to get what they 
believe are elements linked to the PKK out of that area.
    Mr. Levin. All right. Well, let me--reclaiming my time.
    I just want to talk about the meaning of this. I know you 
wanted to have, like, a maximalist definition of ethnic 
cleansing as if it is sort of genocide on a national scale.
    But in the 1990's we started using this term to talk about 
the conflict in Yugoslavia at that--what was then Yugoslavia 
and the United Nations explained ethnic cleansing as, quote, 
``a purposeful policy designed by one ethnic or religious group 
to remove by violent or terror-inspiring means the civilian 
population of another ethnic or religious group from certain 
geographic areas,'' and this description sounds a lot like what 
reporters and human rights organizations tell us has happened 
to the Kurdish people since the Turkish invasion.
    Just last week, Amnesty International reported, quote, 
``The Turkish military offensive into northeast Syria has 
wreaked havoc on the lives of Syrian civilians who once again 
have been forced to flee their homes and are living in constant 
fear of indiscriminate bombardment, abductions, and summary 
killings.''
    Based on what has been reported and what you have said, it 
seems like it would be accurate to call the Turkish assault on 
Kurdish people in that area of northern Syria an act of ethnic 
cleansing as far as I am concerned.
    And here is how President Trump described the Turkish 
invasion on Thursday: ``So you have a 22-mile strip and for 
many, many years, Turkey, in all fairness, they have had a 
legitimate problem with it. They had terrorists. They had a lot 
of people in there they could not have. They have suffered a 
lot of loss of lives also and they had to have it cleaned 
out.''
    Does the President support the ethnic cleansing of Kurdish 
people from that part of Syria?
    Mr. Jeffrey. Absolutely not. He sent us out to negotiate a 
document I have in my hands, which has three of the 13 
paragraphs deal directly with this.
    Mr. Levin. OK. So if the President literally used the words 
``cleaned out'' to describe what Turkey is doing to the Kurds, 
Mr. Ambassador, and suggests that it was justifiable and said 
``in all fairness,'' quote/unquote, Turkey had a legitimate 
problem with this area of Syria and he called their gripe 
legitimate, has he not approved of Turkey's actions de factor, 
sir?
    Mr. Jeffrey. He is trying to explain to the American people 
why a NATO ally took that action. Not approving that action, 
not green lighting that action, but explaining the reasons why. 
It was not to clear out the area of the population, most of 
which where the Turks are, by the way, are Arab, not Kurd.
    Mr. Levin. Sir----
    Mr. Jeffrey. But, rather, to clear out the people who were 
associated with the PKK. We thought that was not a wise 
decision. We thought there were other ways to do it. But he did 
have--Turkey has legitimate security concerns and we have said 
that publicly a thousand times.
    Mr. Levin. Thank you, sir.
    I really appreciate the job you are doing. You are doing a 
good job. But I have to say that last week the President of the 
United States gave a thumbs up to an act of ethnic cleansing.
    And he can try to tell us otherwise and his representatives 
can, but his words are clear and history will be clear about 
the reality of what is happening there.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cicilline. Thank you.
    The chair now recognizes the gentlelady from Virginia, Ms. 
Spanberger, for 5 minutes.
    Ms. Spanberger. Thank you very much, Mr. Chair.
    Thank you for being here. To the witnesses, Mr. Ambassador, 
I would like to begin with you.
    Three weeks ago, I went on a bipartisan congressional 
delegation trip to Turkey, Afghanistan, and the Syrian-
Jordanian border, during which time I met with representatives 
of foreign governments, U.S. military intelligence, and 
diplomatic leadership.
    And over the course of those conversations I was repeatedly 
told of the danger posed to the United States and our allies if 
Turkish forces moved into northeast Syria, which was an area 
protected by our Kurdish partners, the Syrian Democratic 
Forces--SDF.
    When we arrived home, we realized through news alerts that 
in fact we had--the United States--through the President's 
tweet had green lighted Turkish entry into that same area.
    For years now, the SDF has been our staunch allies in the 
fight against ISIS, losing by estimates--and I heard you quote 
the number as well--more than 10,000 of their own soldiers in 
this process, and more recently they have been the first line 
of defense in maintaining the gains that we have made.
    At the beginning of your testimony I heard you say that we 
had three goals in Syria: first, enduring defeat of ISIS; 
second, political solution in Syria; and third, the removal of 
Iranian forces.
    Did the effort--our green lighting or in any way however we 
want to term it--the United States' stance to green light 
Turkish forces to go into Syria, does that in fact impact in a 
positive way the enduing defeat of ISIS?
    Mr. Jeffrey. One, the Turkish incursion into northeast 
Syria has not been positive for the fight against ISIS, 
obviously, in a dozen different ways.
    However, we never green lighted this, and I have to keep 
coming back to this point because it keeps on coming up. Nobody 
told--A, the Turks were not waiting to get permission from us.
    Ms. Spanberger. So then let me ask this. The removal and 
the announcement that we would remove U.S. forces from this 
area of Syria, does that help with--toward the goal of enduring 
defeat of ISIS?
    Mr. Jeffrey. If we are talking about the removal of all 
forces from northeast Syria, it was the considered opinion of 
most people in the Administration that that is not going to 
contribute to the defeat of ISIS--enduring defeat of ISIS--and 
that is one reason why the President this morning essentially 
made an adjustment--I am using my words carefully here--adjust 
to his decision to withdraw our forces. He is going to leave 
some forces on.
    Ms. Spanberger. So then the second goal, which would be the 
political solution in Syria, we have now created a circumstance 
in which our allies in the fight against ISIS, the SDF, has now 
turned its attention toward Assad, entered into an agreement 
with Assad, thereby de facto entering into positive relations 
with Russia.
    Has this--has this been helpful toward the American goals 
of what would be a political outcome in Syria?
    Mr. Jeffrey. It is a good question. We are looking into 
that.
    The SDF has long had relations with Russia and the Assad 
government. We also did not tell them they could not because we 
do not control the political future of that group or any other 
group inside Syria other than what we are allowed to do under 
the relevant U.N. resolution.
    So they were talking for a long time with them. We have to 
see what this agreement will actually--between the Russians and 
the Turks--will actually turn out on the ground.
    Ms. Spanberger. But departing and leaving our previous 
allies to their own defenses and, as my colleague from Michigan 
said, potentially--as the potential victims of genocide in 
northeast Syria, does that lay the groundwork for a political 
solution in Syria that would be in keeping with American 
national security interests?
    Mr. Jeffrey. Again, we gave political guarantees to the 
Kurds that we would use all necessary means, all political 
means, other than military force to try to keep the Turks out 
and try to keep their situation stable against Turkey, and we--
the Turks decided not to heed us, not to, essentially, accept 
our sticks and go in.
    Ms. Spanberger. So and have our efforts in any way been 
helpful toward the removal of Iranian forces from Syria?
    Mr. Jeffrey. I think our overall effort in Syria has been 
placing pressure on Iran in many ways, some of which I cannot 
discuss here, but they are fairly significant. How this will 
have an impact on it I do not know. But, again, importantly, we 
are keeping our forces on in al-Tanf in the south.
    Ms. Spanberger. So and my concern--I am a former case 
officer with the CIA so my perspective is one of human 
intelligence. I think it is notable that as a consumer of 
intelligence that might be driving some of our policy I think 
it should be deeply concerning to you and your colleagues that 
we have now lost access to human intelligence through the 
relationships that we did have with the Kurds.
    My final question is we have now--we were withdrawing all 
of our troops. Then we were withdrawing some of our troops. the 
President has now said we are going to leave some of the troops 
in Syria in order to keep the peace.
    The frenetic nature of this foreign policy objectives or 
strategy, I suppose one would call it, is it in any way going 
to serve the goals--those one, two, three goals that we stated 
to remove troops, then not remove troops, and go back and 
forth, betray our allies in the process?
    Mr. Cicilline. The gentlelady's time has expired but if the 
witness would please answer the question.
    Mr. Jeffrey. I would not use the word frenetic. But a 
rapidly changing set of circumstances, obviously, poses 
challenges to us. We will be able to handle them.
    Ms. Spanberger. Certainly rapidly changing, I understand. 
But when we buoy back and forth that seems a little bit more 
frenetic than rapidly changing.
    Thank you. I yield back.
    Mr. Cicilline. The gentlelady yields back.
    The gentlelady from Pennsylvania, Ms. Houlahan, is 
recognized for 5 minutes.
    Ms. Houlahan. Thank you, sir, and thank you to both of you 
guys for coming. I am going to kind of follow on piggyback on 
some of Ms. Spanberger's questions because I also was on the 
bipartisan trip that went over to Jordan, to Afghanistan, as 
well as to Turkey.
    To a person, when we met with people, either State or 
military or the allies that we had--when we did ask that 
question of what keeps you up at night, kind of what scenario 
most concerns you, many people responded with the incursion of 
Turks--Turkey into Syria and we, literally, landed on the 
ground at about 6 a.m. on Monday to the news that we had made 
that decision--that our president had made that decision.
    I guess my questions have to do with the decision processes 
because, sir, in your testimony you talked a little bit about 
the fact that you have daily conversations with Mr. Pompeo. You 
said that, in quote--I am trying to make sure that I get this 
right--you have ``obsessive'' reviews and discussions about 
this situation.
    Do those reviews and obsessive discussions also include 
some of the State Department people whom we might have met with 
in the region?
    Do they also include some of the military people whom we 
might have met within the region who had as many as four stars 
on their--and could not possibly have been that good of actors 
that they would not have belied this that this was coming?
    Mr. Jeffrey. I personally review up to 300 emails and 
telegrams and telephone conversations a day with those people, 
and what they say goes into everything I pass on to both 
Secretary Pompeo and my White House counterparts.
    Ms. Houlahan. So are you saying that those folks, when we 
left the ground on Sunday--that, I believe, would be the 7th--
did know that this was happening?
    Mr. Jeffrey. No. What I am saying is that their concerns 
about the potentially disastrous effects of a Turkish incursion 
were definitely passed on to the top and that is one reason why 
this Administration and this Congress acted in the extremely 
vigorous way it did, first of all, unsuccessfully to stop the 
incursion, and then second with sanctions, with diplomacy, and 
ultimately a cease-fire negotiation did stop it.
    Ms. Houlahan. So I would like to go back and just get some 
clarification, because when you say that there was no green 
light, I really do want to emphasize that it feels as though it 
was certainly an implicit green light since you did mention in 
your testimony today that had we kept those couple dozen--few 
dozen troops there that this would not necessarily have 
happened.
    Mr. Jeffrey. Oh, I am sorry. I either misspoke or I was 
misunderstood.
    No. Those forces had no bearing on any Turkish decision to 
the best of my knowledge from any source of information that I 
have access to, and that is a lot. The Turks would have simply 
driven around them.
    Ms. Houlahan. My next question has to do with what you 
mentioned in terms of some of the prisons and camps that are 
still being manned and managed by SDF.
    What role do we feel as though that those folks have 
their--the real focus to be able to continue to man those when 
they have effectively been betrayed by us?
    Mr. Jeffrey. Well, remember, they are not doing that as a 
favor to us, Congresswoman. They are doing that to secure their 
own populations and to secure their own safety. They consider 
these people terrorists and criminals, and, as I said, they 
have done a really good job under fairly chaotic circumstances 
and keeping 99 percent of them under guard.
    Ms. Houlahan. And do you believe that they will be able to 
continue to stay there?
    Mr. Jeffrey. I am more confident today than I was 6 hours 
ago.
    Ms. Houlahan. My last question has to do with your 
conversation about war crimes. It just really struck me that 
when Syria was conducting what amounted to war crimes using 
chemical weapons that there was a hue and outcry from our 
country and from our Administration about that.
    I have not heard anything about that other than here, and I 
am just wondering what do we need to know other than what we 
already know for the American people to understand that the 
Turks are possibly committing war crimes as well?
    Mr. Jeffrey. Well, there was considerable--both 
administration public commentary and a great deal of media 
focus on the two incidents--the killing of a civilian Kurdish 
organization woman, Hevrin Khalaf, along the main east-west 
road, and then in either the same or a similar incident by the 
same opposition group supported by the Turks the killing of 
several people who were defenseless with their hands tied.
    We are looking into that now. We immediately reached out to 
Ankara and asked for the highest level expiation of this and we 
are not going to give up on that.
    But that is the incident that we are all focusing on right 
now. There have not been a lot of them. In Idlib, in contrast, 
when the Syrian government and its allies go in, we see dozens 
of these a day as a deliberate policy, not as a possible 
offshoot of an ill-disciplined element. We see it as deliberate 
policy approved from the top.
    Ms. Houlahan. So I have run out of time. But I would 
definitely like to have us followup if we could get more detail 
on the crimes that you believe have been committed and what it 
is that we are doing to respond to them, and I appreciate your 
time, sir.
    Thank you.
    Mr. Cicilline. The gentlelady yields back.
    I now recognize the gentleman from New Jersey, Mr. 
Malinowski, for 5 minutes.
    Mr. Malinowski. Thank you, Mr. Chairman.
    Ambassador, you have heard a lot from a number of my 
colleagues about our decision to, as many of us have argued to 
betray our Kurdish allies, and I fully agree with those 
concerns. I am not really going to add much because I think 
they have covered it.
    I want to stress something that I think is perhaps even 
more important and that is that this decision by the President 
not only cleared the way for Turkey to attack the Kurds; it has 
effectively cleared the way for the Assad regime and the 
Russians to move back into an even larger area of northeastern 
Syria because, of course, the Kurds, feeling as if they could 
no longer depend on us for protection, turned immediately, 
understandably, to the Devil and made a deal to assure their 
long-term protection with the Russians and Assad.
    There are about 3 million people living in this part of 
northeastern Syria. About 70 percent are Syrian Arab. Only 
about 25 percent are Kurdish, and let's be fair here. Turkey 
does have some scruples.
    The Assad regime and the Russians do not. And so my 
question to you, and this has not gotten enough attention, is 
what is happening to civilians in areas that are being 
reoccupied by the regime?
    What is likely to happen in the large population centers of 
Raqqa and Deir ez-Zor, which are full of people who oppose the 
Assad regime and who will be pursued and killed if the Russians 
following--and the regime following this deal are able to go 
back in there?
    Mr. Jeffrey. Yes. I seldom am complimentary to the 
Russians, but the Russian military police units that are 
involved in this and throughout Syria tend to treat the 
population fairly well.
    But you are absolutely right. The Assad forces have a 
terrible reputation and we will watch that as closely as 
possible. Again, they are doing this in coordination with the 
SDF.
    The SDF, of course, have a vested interest and a very 
sincere one in making sure that their people are not harmed by 
the regime. So we have to see how this works out.
    Mr. Malinowski. Yes, but the SDF is largely a Kurdish 
militia. Their people are not necessarily the 70 percent who 
are not Kurdish, and let me just ask you--this is real-world 
stuff.
    If the--the YPG is now dependent on the Russians and the 
regime for protection and if the Russians and the regime say to 
the YPG, we will only keep you secure from the Turks if you 
allow the regime to basically reconstitute itself as the 
dominant power in northeast Syria, what on earth is the YPG 
going to say? They are not going to fight the regime under 
those circumstances.
    Mr. Jeffrey. We are looking into exactly what the 
circumstances are and what the relationship will be between the 
Russians, the regime, and the SDF after this agreement that was 
made.
    So you are absolutely correct that that could be a danger.
    Mr. Malinowski. Well, I am glad to hear you are looking 
into it. But I just saw the Statement the President made or I 
read the points. There was absolutely no reference to any of 
this.
    The only thing he is saying in an effort, somehow, to 
reassure us is we have secured the oil. We secure the oil. We 
secure the oil.
    I have not heard him say a darn thing about securing the 
people who live in these cities that we helped to liberate, who 
struggled against the Assad regime.
    All he talks about is we secure the oil. The rest--and 
here, again, I am quoting him--is sand. Sand. Sand.
    So can you assure me that we are going to use whatever tiny 
bit of influence we have left in this part of the Middle East 
that we have ceded to Russia to protect almost 3 million people 
who may now be subject to the yoke of the Assad regime?
    Mr. Jeffrey. Again, we will do everything we can both to 
achieve our objectives in Syria and to maintain the well-being 
to the extent we can of these people. But there are limits to 
what we will do with military force.
    Mr. Malinowski. Well, of course. I mean, with 200 people or 
however many people we cannot do very much. We were able to do 
something because we are aligned with the SDF, which, until 
now, had no reason to be cutting deals with the Devil.
    Now they have cut a deal with the Devil and it is hard for 
me to see how 200 or 100 or 300 troops can even secure these 
oil fields, as if that were our primary national interest, much 
less secure a population that is--well, they are not only human 
beings but this is the population from which ISIS recruits. Is 
that not correct?
    Mr. Jeffrey. To some degree, yes. But whether it is 200 or 
20,000, Congressman, the key thing is what is the legal mission 
they have been given.
    If they have been given a legal mission to secure an area 
from everybody that is one thing. If they have been given a 
legal mission as they have been given, ultimately, from this 
body to pursue an al-Qaida offshoot in northeast Syria, that is 
a different set of authorities and they cannot use that 
authority serendipitously to go after anybody and everybody.
    Mr. Malinowski. OK. My time is up. But with permission of 
the chair, I also just want to ask you about the stabilization 
funding. I asked you about this the last time you were here. 
Hundreds of millions of dollars have not been obligated and it 
speaks to the----
    Mr. Cicilline. The gentleman's time has expired. If you 
want to give a brief response.
    Mr. Jeffrey. Right. the President just approved $50 million 
for stabilization from that--most of it from that bucket of 
money, and $4.5 million of additional stabilization funding for 
the white helmets.
    Mr. Cicilline. Thank you. The gentleman yields back.
    I now recognize the gentleman from Maryland, Mr. Trone, for 
5 minutes.
    Mr. Trone. Thank you, Mr. Chairman.
    Thank you for your service, Assistant Secretary Palmer and 
Ambassador Jeffrey, for being here today and all you have done 
for a long, long successful career. Thank you.
    My complaint, really, is with--today is with the 
Administration, not you, Mr. Jeffrey. But it is clear that 
today's talking point that came out is there's no commitment to 
protect the Kurds.
    I heard that a number of times today, and I would like to 
point out that I believe that we have a moral commitment. We 
had a moral commitment. We still do. We fought together with 
the Kurds. Congressman Watkins himself was over there. They 
helped fight our war. Eleven thousand of the Kurds died for us.
    We are, clearly, on the same team and the fact that there 
was quote/unquote, ``no written commitment'' to protect the 
Kurds, I do not think anybody should care.
    The other talking point that bothered me today was there 
is--and it came up again repeatedly--there is no green light. I 
thought my Republican colleague, Mr. Kinzinger, pointed out 
quite correctly there was a green light by the Administration. 
I would call it a very bright green light that came from the 
President. He gave the green light and now with today's 
announcement the dictator in Turkey has been given everything 
he ever wanted. It is all his.
    So I am very disappointed. The rest of the world is 
disappointed, and God bless you in an impossible job you have 
been given to justify that.
    Moving to a second subject--6.2 million people have been 
displaced in Syria, the largest internally displaced population 
in the world--some 160,000 just the last 2 weeks.
    Turkey, NATO ally, once welcomed Syrian refugees. Now it's 
invading the neighboring country. Turkey, NATO ally, purchased 
Russian defensive equipment. Struck a deal with the Russians on 
the buffer zone.
    Turkey, NATO ally, cooperating with Russia. As the 
Washington Post pointed out this morning, Russia's succeeding 
in accomplishing their end game.
    The Assad regime is regaining control of more territory. 
He's propping up their authority--legitimacy. Russia has taken 
our military bases. Hundreds of ISIS detainees have escaped.
    Ambassador, how is it possible that any of these 
developments serve the interest of the United States?
    Mr. Jeffrey. The Turkish incursion and all of the things 
that have flown from it, and you summed them up pretty well, 
are really a disaster. They are tragic, and we have said this. 
We have said this in our Executive Order that we immediately 
rolled out. You have said it here in the Congress.
    Just for the record, once again--and I will not even use 
green light--I will say this Administration did not encourage 
or in any way indicate to the Turks that it was OK for them to 
come in. We told them this is a bad idea.
    Second, we did----
    Mr. Trone. I do not think we told them we are not going to 
stand for it. Mr. Putin told the Turks that he is not going to 
be comfortable with them coming into northeastern Syria. But we 
were not clear. We did not man up.
    We did not stand up and say, no, you cannot come in there. 
Our advisors are there. Congressman Watkins was once there, and 
you cannot come in. He did not say that and that is why they 
came over. That was weakness.
    Mr. Jeffrey. We did not say we would use military force to 
stop them. That is true. We said we would use every other tool 
in our quiver to do so or at least to try to do so from 
sanctions to things like a visit to the United States.
    Mr. Trone. And they did not care, and now they have their 
territory. The sanctions are gone and I am sure he will be over 
to hold hands with Mr. Trump at some point.
    Deputy Assistant Secretary Palmer, we have not imposed 
sanctions for the purchase of the S-400 missile defense system. 
Now they are pushing the boundaries even more. Is this really 
acceptable for a NATO ally?
    Mr. Palmer. Absolutely not, Congressman, and I would 
underscore at the very beginning of this that Turkey paid a 
significant price for the decision to acquire the S-400 system. 
They have been removed from the F-35 program.
    We are talking both in terms of the delivery of physical 
aircraft and the unwinding of Turkish participation in the 
industrial part of F-35 production. That is a significant price 
that Turkey paid immediately upon acquiring the S-400 system.
    We opposed Turkey's acquisition of this system. We made 
that very clear to the Turkish authorities at the very highest 
levels, up to and including President Erdogan. Turkey moved 
forward anyway against our advice, against our admonitions, and 
there were costs and consequences that were imposed immediately 
on Turkey and on the U.S.-Turkey relationship.
    Looking ahead to the issue of CAATSA, that is under review. 
There is a deliberative process in place. It is a complex 
question, particularly with respect to the implementation of 
sanctions against a NATO ally.
    Secretary Pompeo has made clear that we will follow the 
law. We will implement CAATSA as necessary and appropriate. I 
cannot give you a time line on that but I can tell you that 
that issue is under deliberative review.
    Mr. Trone. Thank you both for your service.
    Mr. Cicilline. The gentleman yields back.
    I now recognize the gentlelady from Nevada, Ms. Titus, for 
5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Ambassador, your valiant attempt to describe what this 
Administration has done through a very deliberative diplomatic 
efforts is in total contradiction to what the President himself 
said after this occurred.
    He said even while Pence was on his way over there to do 
something--give away the store, I think--that there is just a 
lot of sand over there--that sometimes you got to let them 
fight like little kids before you step in and separate them.
    The Kurds were no angels. They did not help us in World War 
II. Now is this not very contradictory to the image that you 
are trying to present today?
    I think you are here because you are such a respected 
knowledgeable experienced Ambassador to clean up their mess, 
try to do damage control for what the President said and did 
with this whole atrocious situation.
    Mr. Jeffrey. First of all, the President's public comments 
are his attempt to explain his decisions to the American 
people. That's a political decision. I do not have any real 
comment on how he goes about doing that. That is something that 
is in the political realm that every president, every political 
leaders, everyone who runs for office has to decide how you 
reach out.
    I will say that having been around other presidents the 
comments that they make privately are often pretty blunt and 
very, very sharp toward certain issues. So I am not too 
surprised by the President making these comments.
    Ms. Titus. But if anybody heard those comments would they 
think that protecting the Kurds would be a priority for this 
person?
    Mr. Jeffrey. Again, it is what we do. As you said, the 
President made those comments. He also sent his vice president, 
his Secretary of State, and his national security advisor.
    I think that is unique in our diplomatic history, out not 
to give away the store but to essentially tell Turkey by the 
end of the day we were there in Ankara. We needed a cease-fire 
or we would take further action. That was not giving away 
anything.
    That was taking a very strong diplomatic position and that 
set the stage for the cease-fire that we got then and for the 
additional Russian ability to persuade the Turks not to go in 
in the other areas. The result is we have quiet along that 
entire front today and we are proud of that.
    Ms. Titus. Well, but you have said that Turkey reneged on 
previous deals and you do not think Turkey is a real trusted 
ally and it is not a good deal that they have gotten with the 
Russians.
    So what makes you think they are going to live up to this 
deal? And it is not permanent. You also made that point.
    Mr. Jeffrey. Right. It is pretty permanent. It is semi-
permanent. It is as permanent as anything is in this diplomatic 
world.
    I would say that, and this gets into Turkish through 
processes and decisionmaking--and Mr. Palmer follows this more 
closely than I--Turkey now knows in a way it did not know when 
it went in, even though we told them a thousand times--that it 
would suffer very strong non-military consequences if it took 
that action because it--we did take those very strong non-
military actions including actions that are underway in this 
party.
    That is a different situation and, thus, Turkey is well 
aware that if it violates the agreement with us or, for that 
matter, violates other agreements we have that we will lower 
the boom on them with sanctions.
    These sanctions--the sanctions Executive Order is still in 
effect that we passed or that we issued on the 14th of October, 
and we are ready to do this again if necessary. So I think that 
that is a process of us learning what the Turks are capable 
of--going ahead despite our warnings--and then learning what we 
are capable of doing--that is, living up to our warnings to hit 
them really hard if they take that action.
    Ms. Titus. I think we should have known what the Turks are 
capable of. You can ask Armenia. Ask Greece. Ask Cyprus now. 
They are drilling in their territory. I am surprised we did not 
know what the Turks were capable of.
    One brief thing, too, though. Erdogan has said that if 
Europe describes his current military operation as occupation, 
he is going to release 3.6 million refugees into Europe. That 
does not sound like he is going to be providing some good space 
for them to live if he is going to send them into Europe.
    Is the U.S. ready to help with this refugee problem that 
they partially created? I know that we are lowering our cap on 
the number of refugees to some ridiculous number even from last 
year--I think from 30,000 to 18,000. Where is our 
responsibility there? Anybody?
    Mr. Palmer. Congresswoman, we have seen the statements from 
President Erdogan and others regarding the threat to open the 
floodgate for refugees, either encourage or somehow push people 
in the direction of Europe, but have not seen any followup to 
that of any kind.
    At this point, I would describe that position as rhetorical 
rather than an expression of Turkish policy.
    Mr. Jeffrey. We have provided $10 billion for Syrian 
refugees in Turkey and elsewhere, and that is the single 
largest contribution of any country and we have every intention 
of continuing. We just took a decision for another $100 
million-plus.
    Ms. Titus. Thank you.
    Mr. Cicilline. The gentlelady's time has expired.
    The chair now recognizes the distinguished gentleman from 
the Commonwealth of Massachusetts, Mr. Keating, for 5 minutes.
    Mr. Keating. Well, thank you.
    Thank you, Ambassador and Mr. Palmer.
    Ambassador, you said earlier that we did not consult with 
our closest allies when the President made that phone call with 
President Erdogan. That is correct?
    Mr. Jeffrey. I said we did not tell them in advance of the 
decision. We consulted with our allies and further on down----
    Mr. Keating. Oh, I am just saying they did not know that 
phone call was going to happen?
    Mr. Jeffrey. That is correct.
    Mr. Keating. Now, fair to say that was a mistake?
    Mr. Jeffrey. We often do not let our allies know in 
advance.
    Mr. Keating. Fair to say it was a mistake, Ambassador?
    Mr. Jeffrey. No, it was----
    Mr. Keating. It was not a mistake?
    Mr. Jeffrey. It was a mistake not to tell them before they 
learned about it from the media. That is always with 
diplomacy----
    Mr. Keating. Were their European--were there allies that 
had troops on the ground at that time?
    Mr. Jeffrey. That is exactly the point. They should not 
learn about that from the media but from us.
    Mr. Keating. Well, I could not agree more. So you think 
that was a mistake?
    Mr. Jeffrey. I am trying to get around enumerating the 
mistakes of my----
    Mr. Keating. Why--why--why are you trying to get around 
that it is a mistake when it is? Why? We have heard this from 
so many witnesses. The best thing to do when you make a mistake 
is recognize it and own up. Now----
    Mr. Jeffrey. I have recognized it in one or another way 
five times today. I will recognize it a sixth time. It was 
not----
    Mr. Keating. OK. Let me--let me--it is a mistake. Fair to 
say it is a mistake? Can we do that at the end of the day?
    Mr. Jeffrey. Can I say it is a mistake? It was a mistake.
    Mr. Keating. All right. Thank you.
    Here is the--here is another concern I had. Even after 
that, did the President realize that was a mistake not 
consulting?
    Mr. Jeffrey. You would have to ask him, Congressman. Now, 
the Administration is committed----
    Mr. Keating. You are his envoy. I just thought you might 
know. Here is--here is my other question. I mean he said later 
on--and I have been to Europe.
    I have checked the path of foreign terrorist fighters, 
5,000 or 6,000 that came from Europe, and what he said to 
Europe was you will have to figure the situation out and what 
you want to do with the captured ISIS fighters in their 
neighborhood. We are 7,000 miles away. We will crush ISIS if 
they come anywhere near us.
    Now, do you think that if they are in Europe they are no 
threat to the U.S.?
    Mr. Jeffrey. the President thinks they are a threat to the 
United States. Two, he has done an extraordinary job defeating 
the ISIS Caliphate. Three, he is justifiably extremely 
frustrated by European reactions.
    Mr. Keating. Is it a mistake--I am sorry, Ambassador. So 
little time. Is it mistake that he said that? Is that the way 
to treat our allies--they will have to figure it out?
    Mr. Jeffrey. Our allies should start taking back their own 
citizens who have committed atrocious crimes as terrorists. 
That is the point he is trying to get across.
    Mr. Keating. Now, we have been told, took that--through 
reports that--we have been told by another ally, Iraq, that 
they do not want us to keep our troops there permanently. They 
want us out of there. Is that--are you informed of that? They 
want us out. Iraq even wants us out.
    Mr. Jeffrey. We have a large number of U.S. and coalition 
forces in Iraq working with Iraqis against ISIS. I have every 
certainty that we will be able to continue our forces there, is 
the guy who was the Ambassador the last time----
    Mr. Keating. So that--you do not agree with that statement 
that was reported that Iraqi officials have said, we do not 
want your troops here?
    Mr. Jeffrey. Some Iraqi officials say that every day. What 
they were referring to specifically was the additional troops 
that we were putting into Iraq we had not yet explained to the 
government of Iraq as it is our job to do because of the 
urgency of the situation which troops would stay, what missions 
they were doing. Once we have finished with that, I am more 
confident that we will get a good answer.
    Mr. Keating. You were not consulted with the President's 
phone call. You were not on it. What did Secretary Pompeo say 
to you in terms of next steps after that phone call? You are 
the envoy. He is the secretary. What did he say after in 
relation to that phone call afterwards? What did he tell you 
going forward?
    Mr. Jeffrey. Sure. Well, maintaining the confidentiality of 
internal government deliberations, our going forward was get 
this offensive halted.
    Look at every means possible. Working with Congress on 
sanctions, our own sanctions with Treasury, diplomatic 
initiatives, Presidential initiatives. the President took two 
separate initiatives, three, counting sending Vice President 
Pence out.
    Mr. Keating. Last question that I had is this. I am sorry.
    Can you sit there today and say that as a result of the 
President's phone call with President Erdogan that that did not 
affect in any way Erdogan's decisionmaking? Can you say that?
    Mr. Jeffrey. I believe that Erdogan was--had taken the 
decision--in fact, I pretty much know he had taken the decision 
before the call. What the President tried to do was to put on 
the table all other elements----
    Mr. Keating. So the President--this is very enlightening 
because, evidently, people were aware that even some of the 
comments of the President himself would indicate that that 
phone call had a significant--the President took credit for the 
fact he is bringing the troops back. So he thought that phone 
call had an effect on Erdogan's decision.
    Mr. Jeffrey. No----
    Mr. Cicilline. The gentleman's time has expired but the 
Ambassador may answer the question.
    Mr. Jeffrey. No. The purpose of the President's 
conversation with Erdogan was to try to dissuade him from 
something that in the days before we had suddenly decided was 
not a possibility but a probability and then imminent.
    the President then deployed various diplomatic tools--
incentives, sticks and carrots, if you will--in an effort to 
get Erdogan not to do that.
    He also made clear when Erdogan said he would do it anyway 
we would not support it in any way. We did not believe in this. 
We were against it and we would not act militarily----
    Mr. Keating. Pretty ineffective result.
    I yield back.
    Mr. Cicilline. Thank you. The gentleman yields back.
    I recognize the gentlelady from Minnesota, Ms. Omar, for 5 
minutes.
    Ms. Omar. Thank you, Chairman. It is very clear that we are 
here for one reason and one reason only today. Three weeks ago, 
President Trump held a phone call with the Turkish president, 
Recep Erdogan, during which by his own admission he gave Turkey 
the green light to invade Syria and endanger the Kurdish 
people. This one action set of a cascade of the destabilising 
events that have endangered U.S. national security, the 
stability of the Middle East and the world.
    Turkish troops have invaded northern Syria. More than 
100,000 people are displaced and hundreds of ISIS supporters 
have escaped. And Turkey and Turkish-backed militias have been 
accused of atrocities against the Kurds including the alleged 
use of chemical weapons.
    The Trump Administration bragged about a cease-fire, though 
Turkey has said their operation is likely to continue. These 
actions are indefensible.
    I believe that, as in any conflict in the world, our 
response as a committee charged with overseeing this 
Administration's foreign policy must be guided by our values--
respect for human rights, self-determination, and human dignity 
for all involved.
    What is missing here in all the conversations about great 
power competition and about diplomatic norms and about 
sanctions is that the most important and fundamental fact of 
what is happening.
    This is a question in the end of human rights and 
democracy. It is a question of whether Kurds have the right to 
exist as Kurds. We need to center the rights and dignity of 
human beings. We need to center the rights and dignity of the 
Kurdish people as Kurdish people.
    We have allowed this and we need to talk about 
accountability. Accountability does not mean canceling and 
freezing bank account. It does not mean crippling the Turkish 
economy, enacting mass punishment on populations that did not 
choose this.
    It means thinking seriously about justice for these 
atrocities. It means thinking seriously about how we stop 
arming and supporting brutal regimes in the name of our 
national interest.
    It means looking with clear eyes at foreign policy that 
threatens entire groups of people as expendable tools to be 
used and then discarded if we believe it serves our narrowly 
defined interests.
    It means not using the lives and suffering of human beings 
halfway around the world, suffering that we have permitted, 
that we have encouraged as a card we play in our domestic 
political arguments.
    So, Ambassador, if it turns out that the Turkey or Turkish-
backed forces have used chemical weapons on civilians, what 
responsibilities does that trigger for the United States?
    Mr. Jeffrey. Again, we have taken a position with the Assad 
regime on using chemical weapons. We are opposed to it. We made 
a announcement--Secretary Pompeo, at the U.N. General 
Assembly--now about a month ago on the latest use of it--
chlorine by the Assad forces near Idlib.
    We are looking into the one accusation that was made--the 
use of white phosphorus which, under some circumstances, is a 
legitimate military ordnance. Under other circumstances it is 
not. You have to look at the circumstances and that is what we 
are doing now.
    Ms. Omar. When we had the hearing on Syria I talked about 
how I felt Turkey and Russia were guiding our policy in Syria 
and how that was alarming to me.
    I just wanted to know whether you had input on the letter 
the President sent to President Erdogan on October 9th.
    Mr. Jeffrey. I was involved in receiving the letter from 
General Mazloum, the commander of the SDF, that the President 
then passed on to President Erdogan, and I was involved in the 
general--this is the problem of consultations.
    We consult with the secretary, the secretary with the 
President all of the time on a variety of issues. This 
president and other presidents then take decisions based upon 
the sum of all of that--instincts, gut feelings, and everything 
else--that is how it works. And that produced that letter.
    Ms. Omar. Yes. I wish that more of you had direct input 
onto that letter because I think it is fair to say that the 
letter is humiliating to the United States. I know you will not 
be able to agree with that publicly but it is. Both of you know 
there is diplomacy--there is art to diplomacy and, quote, 
``Don't be a tough guy. Don't be a fool,'' is not art. It is a 
national embarrassment and it is a disgrace.
    Thank you. I yield back.
    Mr. Cicilline. The gentlelady yields back.
    I now recognize the distinguished gentleman from the 
Commonwealth of Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome, Mr. 
Ambassador, Mr. Palmer.
    Mr. Ambassador, you have agreed that the Turkish incursion 
into northeastern Syria is a disaster and has further 
compromised U.S. national security interests.
    Is that correct?
    Mr. Jeffrey. It was heading that way, that is--sure.
    Mr. Connolly. So we have 176,000 civilians so far 
displaced, hundreds killed, potential war crimes committed. 
U.S. and allied efforts to secure an enduring defeat of ISIS 
perhaps put in jeopardy and prompted the SDF to align with ISIS 
and Assad--not ISIS, excuse me--Assad and Russia to protect 
themselves from Turkey, and U.S. credibility damaged worldwide 
with our allies.
    Would that be a fair summary of the consequences?
    Mr. Jeffrey. Possibly a bit harsher than I would put it.
    Mr. Connolly. Well, let me ask you this. Was the President 
advised, therefore, not to withdraw U.S. troops, thus avoiding 
both the Turkish invasion from Turkey and the move from the 
south by SDF and Assad?
    Mr. Jeffrey. I will try again on this one, Congressman.
    the President received a whole variety of advice on troop 
presence in Syria, troop presence in Afghanistan, and troop 
presence in certain other areas where internal conflicts make 
our presence less than obvious, such as in Europe and in South 
Korea. That is the job of any president. This one takes that 
particular issue very seriously, as they should.
    But that is separate from--a decision on withdrawing troops 
or not withdrawing troops is separate from Erdogan's decision 
to go in. The Turkish incursion was a decision taken by the 
President of Turkey.
    It was not a decision he took because we told him he could 
or that we would not oppose him. He knew we would not oppose 
him because we had never told him we would oppose nor this 
Administration nor the last one.
    Mr. Connolly. Mr. Ambassador--Mr. Ambassador, there is, 
however a sequence. Mr. Erdogan, despite many, many threats, 
has not undertaken this kind of incursion until the President 
of the United States informed him that we were going to 
withdraw our troops and stop providing protection to the 
Kurdish fighters and Kurdish villages. Is that not correct?
    Mr. Jeffrey. It is totally incorrect.
    Mr. Connolly. Incorrect?
    Mr. Jeffrey. Incorrect, and I have done this for 2 days. I 
will do it again. Those troops were not there to protect the 
Kurds from the Turks. It is that simple.
    Mr. Connolly. No, that is not what I am asking. I am asking 
is there a connection--the rest of the world sees it--between 
our decision to withdraw and the Turkish decision to cross the 
border and begin engaging in what is euphemistically called 
kinetic activity--combat--with our Kurdish allies?
    Mr. Jeffrey. Congressman, in looking at thousands of pieces 
of information and intelligence, I have seen no indication that 
that was a factor in the Turkish decision to come across.
    Mr. Connolly. Really?
    Mr. Jeffrey. Really.
    Mr. Connolly. So your contention, given your portfolio, is 
that the Turks were prepared to cross the border and engage in 
combat even if it required going through U.S. troops?
    Mr. Cicilline. Please put your microphone on.
    Mr. Jeffrey. There were two outposts up there that did not 
have the mission of stopping the Turks or anything else other 
than observing fire on both sides.
    Mr. Connolly. Did they have--did they de facto have 
deterrent value?
    Mr. Jeffrey. Absolutely not. In fact----
    Mr. Connolly. So why did not the Turks go in sooner? How is 
it just coincidentally the Turks decided to go in only after 
the conversation between our president and President Erdogan of 
Turkey?
    Mr. Jeffrey. Right, but the President--this is--the 
conversation that the President had with Erdogan, again, I was 
briefed on how it went down but not the specifics. But my 
understanding is, and it is--I think it is accurate--the 
President only said after he could not persuade Erdogan not to 
come in that, obviously, our troops would be out of the way 
because like any other president in a situation like that, 
correctly and importantly he does have to think about the 
safety of our troops.
    Mr. Connolly. So is it your contention that where we have 
troops in other hot spots--for example, troops in Korea--South 
Korea--the President ought to be prepared to withdraw those in 
the event Kim Jong-un threatens an invasion of the south or, 
for that matter, Putin decides he wants to risk triggering 
Article 5 of NATO and he wants to incur--he wants to introduce 
troops where we have troops in NATO-allied countries?
    Mr. Jeffrey. Yes, I----
    Mr. Connolly. Your position is they are not there for that 
value and they could and should be withdrawn to avoid harm's 
way?
    Mr. Jeffrey. No. I have been--I am feeling emotional in 
answering what is a very understandable question. But however 
curious it may appear, there's a fundamental difference that we 
do not make clear as a country, let alone an administration, 
between putting troops under treaty obligations to defend 
territory and people against somebody else and the troops that 
we had in northeast Syria fighting ISIS.
    Mr. Connolly. Mr. Ambassador, there is--I agree--a 
difference between a treaty and not having a treaty. But 
there's also a matter of national honor and the word of a great 
country.
    We have fought side by side with our Kurdish allies who 
were successful--in fact, the only ally group in Syria that 
were successful in destroying ISIS and its Caliphate, and the 
abandonment of the Kurds is one of the most shameful things I 
have seen in over 40 years of association with American foreign 
policy.
    And you are an honorable man, but you are defending 
something that lacks honor and I feel bad for you. I feel bad 
for your career because that is no way to end an honorable 
career--defending the indefensible.
    Mr. Jeffrey. I insist on a response to this.
    Mr. Cicilline. Yes. The gentleman's time has expired but 
the Ambassador may respond.
    Mr. Connolly. It is only fair to allow the Ambassador to 
respond.
    Mr. Cicilline. Yes, of course.
    Mr. Jeffrey. All right. First of all, I know of no 
responsible American official who has the authority to make 
such commitments including Ash Carter, who went on the record 
on Sunday, as did Tony Thomas, whoever told our SDF allies that 
we would use military force to protect them against Turkey--in 
fact, knowing that the Turks had a major and understandable 
problem with the PKK links of the SDF, we, again, very often 
made the point that there had to be a political reconciliation 
of one sort or another and we committed to try to do that, 
which we did to.
    In fact, they did that. Members of the SDF or the parent 
organization of the SDF had been in Turkey up to 2015. We also 
commit--where we committed was that we would do everything 
short of military force to try to hold off a Turkish incursion 
or Turkish military action against them. That includes the 
sanctions that we warned the Turks about. That includes 
diplomatic action.
    That includes the cease-fire we negotiated. But nobody in a 
position of authority that I know of, and whoever it is this 
committee should call forth and have him or her explain on what 
basis he or she did that, ever told the Kurds that we would 
protect them militarily against Turkey.
    And it is not just by assumption that they made that 
because we were very explicit, at least I was, for the last 14 
months saying we would not do that.
    Mr. Connolly. Mr. Chairman.
    Mr. Cicilline. Yes.
    Mr. Connolly. I know my time has expired and I am the last 
questioner, apparently, besides yourself.
    Mr. Cicilline. No, I am.
    Mr. Connolly. Besides yourself. May I just ask one followup 
to that?
    Mr. Cicilline. Yes, certainly.
    Mr. Connolly. And is it your testimony that it is your 
understanding the President of the United States told President 
Erdogan, therefore, do not do it even though we are not going 
to fight?
    Mr. Jeffrey. It is my understanding that he told Erdogan 
not to do it and, certainly, all the rest of us did and it is 
my understanding that the President made that clear as well.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Cicilline. Thank you, Mr. Connolly.
    I now recognize myself. Thank you to our witnesses for 
being here.
    I share the sentiment of all of my colleagues on this 
committee that this decision was--by the President was immoral, 
reckless, and undermined the American leadership in the world 
and, most significantly, made us less safe.
    So I want to start, Ambassador Jeffrey. You are the special 
representative for Syria engagement and the special envoy to 
the global coalition to defeat ISIS.
    The reason we create special envoys is because we want 
someone who has special expertise, a lot of knowledge about a 
particularly complicated issue, and that would be a resource in 
informing policy in that region, correct?
    Mr. Jeffrey. Exactly.
    Mr. Cicilline. And you are telling us that you were not--
you were not aware of the decision of the President prior to 
his making it to withdraw American troops from Syria?
    Mr. Jeffrey. I was aware that the President----
    Mr. Cicilline. Let me rephrase it. You were not consulted 
by the President to get your best thinking on this?
    Mr. Jeffrey. I was consulted by the President through 
Secretary Pompeo, literally, dozens of times in the weeks and 
months before.
    Mr. Cicilline. By the decision that was made by the 
President after speaking with President Erdogan, before that 
decision was executed were you consulted?
    Mr. Jeffrey. Very, very frequently by, again----
    Mr. Cicilline. About American troop withdrawals from Syria?
    Mr. Jeffrey. All of the time by Secretary Pompeo and people 
in the White House. Sure.
    Mr. Cicilline. And I presume you argued against it?
    Mr. Jeffrey. I cannot indicate internal U.S. Government 
deliberations. But I am generally in favor of our keeping 
troops on the ground when it makes sense.
    Mr. Cicilline. OK. And you said--and in this case it made 
sense, I take it?
    Mr. Jeffrey. That would be getting into private----
    Mr. Cicilline. OK. You say in your written testimony that 
President Erdogan had a conversation with President Trump on 
the phone and you say that in that call he indicated that the--
Turkey intended to move forward with this long-planned 
operation into Syria.
    Now, we have had American troops in this place for 5 years 
and the only thing that changed in those 5 years that caused 
Turkey to actually execute this was the withdrawal of American 
troops?
    Mr. Jeffrey. That is wrong.
    Mr. Cicilline. But what else changed?
    Mr. Jeffrey. No. No. The----
    Mr. Cicilline. So for 5 years President Erdogan has 
clamored that he wanted to do this but he did not do it, and he 
did not do it in part, you would agree, because of the presence 
of American troops. Is that fair to say?
    Mr. Jeffrey. No. No, absolutely not.
    Mr. Cicilline. OK. Well, let me ask you specifically about 
the phone call then. In that phone call, he was told clearly by 
the President--this is your testimony, Ambassador--that U.S. 
armed forces would not support or be involved--well, good 
thing--I mean, that is a really strong statement--we actually 
will not help you kill our allies who helped us defeat ISIS--
that is a strong statement from the President. And then he 
said, ah, and the U.S. will not endorse those actions.
    I should hope not. But you never say he--that the United 
States would oppose it and would, in fact, do everything we can 
to prevent it from happening and you said just now, our troops 
would be out of the way.
    So you are saying that when President Erdogan said we are 
going forward, President Trump said, well, I cannot endorse it. 
We are not going to help you. But we will get our troops out of 
the way.
    Is that your testimony?
    Mr. Jeffrey. the President said all of that. But the--I 
think the context is incorrect. He was not saying our troops 
who are protecting the Kurds from you will get out of the way. 
the President said, we have got too little--I think you meant 
the two little detachments up there--they will be out of the 
way so do not do anything bad to them.
    Mr. Cicilline. So in that conversation where the President 
said, we will not endorse it, we will not support your actions, 
and our troops will get out of the way--it was after that phone 
call and those representations were made that Turkey began its 
invasion and the slaughter of the Kurds.
    Mr. Jeffrey. Turkey had taken its decision before the phone 
call.
    Mr. Cicilline. It is after that conversation that they 
executed it. I know you said they made a decision. But they 
executed it, correct?
    Mr. Jeffrey. That is true.
    Mr. Cicilline. OK. And it is been reported that yesterday 
Russia and Turkey agreed to a plan to push Kurdish fighters 
from a wide swathe of territory just south of Turkey's border, 
cementing Vladimir Putin's preeminent role in Syria as U.S. 
troops depart and American influence wanes.
    Do you agree with that assessment? Fair assessment?
    Mr. Jeffrey. Not completely.
    Mr. Cicilline. Well, it, clearly, leaves Turkey and Russia 
in control of territory formerly held by Kurdish fighters?
    Mr. Jeffrey. That is true.
    Mr. Cicilline. OK. And it certainly cements Vladimir 
Putin's very significant role in Syria now, correct?
    Mr. Jeffrey. Putin has long played a very prominent role in 
Syria and he thinks--he sees this as playing an even more 
prominent role.
    Mr. Cicilline. Well, you do--you do as well, as an expert 
in the region, do not you?
    Mr. Jeffrey. I am very troubled by this agreement.
    Mr. Cicilline. OK. Because it increases the role of 
Turkey--I am sorry, the role of Turkey and Russia both in this 
region, correct?
    Mr. Jeffrey. Oh, there are many reasons to be troubled. I 
disagree.
    Mr. Cicilline. But that is two of them at least, right?
    Mr. Jeffrey. Probably.
    Mr. Cicilline. OK. You also said that you thought we could 
continue our relationship with SDF. I hope that is true, 
although it is hard to imagine that they would have much 
confidence that they can rely on the United States in light of 
our conduct and the notion that because there was not an 
explicit promise--you know, sometimes in international affairs, 
as you know better than anyone in this room, when you have 
people who have acted on your behalf in your interest at 
considerable sacrifice--more than 10,000 fighters--really, 
really skilled fighters from the Kurdish people that have 
helped us defeat ISIS, that does not require a written 
contract--that there would be an expectation that we would 
acknowledge that if we expect people to act in American 
interests in the future.
    So I hope that they will continue to work with us, although 
I can certainly understand if they decided not to.
    Ambassador Jeffrey, you are familiar with the Syria Study 
Group report and recommendations, correct?
    Mr. Jeffrey. Yes, I am.
    Mr. Cicilline. We had a hearing last week with to co-chairs 
of that group and they gave us detailed readouts of how the 
President's decision will impact our ability to succeed in 
Syria and they painted a picture that was not very bright.
    So I want to talk about some of the assessments that were 
contained in that report and get your feedback.
    One of their assessments was that the liberation of ISIS-
held territory does not eliminate the group's threat to the 
United States, and do you believe that the decision to withdraw 
has made it easier or harder to contain ISIS inside of Syria?
    Mr. Jeffrey. Well, again, the President this morning has 
said that he is not withdrawing all of the troops. Generally 
speaking, withdrawing troops from a situation, be it Iraq in 
2011, be it Syria in 2019, does not enhance our ability to deal 
with internal threats.
    Mr. Cicilline. But it is complicated by the fact that the 
President also said it is Russia and Turkey's problem to 
contain ISIS, did not he?
    Mr. Jeffrey. I believe at one point he may have said that.
    Mr. Cicilline. That is not--is that--is that the policy of 
the Administration?
    Mr. Jeffrey. We have an agreement with the Turks as part of 
the cease-fire agreements to work with us in containing ISIS 
and the Turks actually, in the area around al-Bab and 
Jarabulus, did that quite successfully in 2016.
    The Russians at times have been successful against ISIS in 
Palmyra, for example. So it is at least theoretically possible.
    Mr. Cicilline. Ambassador Jeffrey, you said you were not on 
the telephone call with--between the President--President 
Erdogan and President Trump. You have testified a lot about the 
call. Have you seen a readout of the call?
    Mr. Jeffrey. I have been briefed extensively on the call.
    Mr. Cicilline. By whom?
    Mr. Jeffrey. By members of the Administration who were on 
the call.
    Mr. Cicilline. Have you seen a transcript of the call?
    Mr. Jeffrey. I have not.
    Mr. Cicilline. You were--then made reference to a letter 
that was subsequently sent 3 days later--or Presidential 
message. Did you deliver that message?
    Mr. Jeffrey. I delivered a message that the President had 
cleared to the Turkish leadership to President Erdogan that if 
they did not accept a cease-fire that we were trying to 
negotiate very quickly we had good information that the SDF 
would turn to the Russians and the Syrians so that, therefore, 
they could get a cease-fire with us and minimize the damage or 
they would wind up being faced with more Russian and Syrian 
government involvement in their area, which is exactly what 
happened. They did not listen to us and they now have a more 
difficult situation from the Turkish standpoint.
    Mr. Cicilline. And, Ambassador, did you participate in the 
preparation of that--I do not even know how to describe it--the 
letter the President wrote that--the only thing that was 
missing it maybe it shouldn't have been written in crayon--did 
you participate in the drafting of that letter to President 
Erdogan from President Trump--do not be a tough guy--do not be 
a fool?
    Mr. Jeffrey. We provided input to that informed, as we 
would put it diplomatically, the President's decision. I would 
just note that in the wake of that letter, while President 
Erdogan referred to it publicly in a rather dismissive way--I 
will throw it in the wastebasket--he then spent 5 hours with 
President Trump's emissary, negotiated an agreement, and had a 
very positive call with President Trump the next day, which I 
was on.
    So whatever we say about the letter, the letter turned out 
to be a pretty effective tool of diplomacy.
    Mr. Cicilline. Yes. Ambassador Jeffrey, I will just end 
with this.
    I hope that you hear from this committee a bipartisan sense 
of disgust at the policy of the President--that it has harmed 
our standing in the world and has betrayed an important ally to 
the United States, which undermines our ability and our 
leadership around the world.
    It has created a greater opportunity for ISIS to 
reconstitute and impose a real threat to the United States. And 
although all of this can be attributed to the Turkish invasion, 
you will not convince me and many members of this committee 
that that was precipitated by the President's conversation with 
Erdogan and not being forceful enough about keeping U.S. troops 
in that region, and as a consequence of that, that is what 
changed. Five years had passed. Erdogan had threatened that but 
had never done it.
    But when the President said, we will get out of your way--I 
cannot condone it--it was an invitation to do it and that 
undermined national security interests of this country. It was 
a dumb idea for the President to do it.
    It has wrought chaos to the region and undermined the 
interests of our country and I hope you will take that back in 
as clearly terms as you can as the Administration and Congress 
tries to figure out how do we mitigate the damage that this 
horrific decision has wrought upon us and the world.
    And with that, the committee stands adjourned.
    [Whereupon, at 1:26 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

            responses to questions submitted for the record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
